<html>
<title> - H.R. 155, LOWER BRULE AND CROW CREEK TRIBAL COMPENSATION ACT; H.R. 5511, LEADVILLE MINE DRAINAGE TUNNEL REMEDIATION ACT OF 2008; AND H.R. 5710, EASTERN NEW MEXICO RURAL WATER SYSTEM AUTHORIZATION ACT.</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
  H.R. 155, LOWER BRULE AND CROW CREEK TRIBAL COMPENSATION ACT; H.R. 
5511, LEADVILLE MINE DRAINAGE TUNNEL REMEDIATION ACT OF 2008; AND H.R. 
    5710, EASTERN NEW MEXICO RURAL WATER SYSTEM AUTHORIZATION ACT.

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                         Thursday, May 8, 2008

                               __________

                           Serial No. 110-69

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

42-298 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


























                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Chris Cannon, Utah
Frank Pallone, Jr., New Jersey       Thomas G. Tancredo, Colorado
Donna M. Christensen, Virgin         Jeff Flake, Arizona
    Islands                          Stevan Pearce, New Mexico
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Luis G. Fortuno, Puerto Rico
Madeleine Z. Bordallo, Guam          Cathy McMorris Rodgers, Washington
Jim Costa, California                Louie Gohmert, Texas
Dan Boren, Oklahoma                  Tom Cole, Oklahoma
John P. Sarbanes, Maryland           Rob Bishop, Utah
George Miller, California            Bill Shuster, Pennsylvania
Edward J. Markey, Massachusetts      Bill Sali, Idaho
Peter A. DeFazio, Oregon             Doug Lamborn, Colorado
Maurice D. Hinchey, New York         Mary Fallin, Oklahoma
Patrick J. Kennedy, Rhode Island     Adrian Smith, Nebraska
Ron Kind, Wisconsin                  Robert J. Wittman, Virginia
Lois Capps, California
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
            Christopher N. Fluhr, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

                    SUBCOMMITTEE ON WATER AND POWER

              GRACE F. NAPOLITANO, California, Chairwoman
     CATHY McMORRIS RODGERS, Washington, Ranking Republican Member

Jim Costa, California                Ken Calvert, California
George Miller, California            Doug Lamborn, Colorado
Mark Udall, Colorado                 Mary Fallin, Oklahoma
Joe Baca, California                 Adrian Smith, Nebraska
Nick J. Rahall, II, West Virginia,   Don Young, Alaska, ex officio
    ex officio
Vacancy
                                 ------                                



















                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, May 8, 2008............................     1

Statement of Members:
    Herseth Sandlin, Hon. Stephanie, a Representative in Congress 
      from the State of South Dakota.............................    36
        Prepared statement on H.R. 155...........................    38
    Lamborn, Hon. Doug, a Representative in Congress from the 
      State of Colorado..........................................     3
        Prepared statement on H.R. 155, H.R. 5511 and H.R. 5710..     4
    Napolitano, Hon. Grace F., a Representative in Congress from 
      the State of California....................................     2
        Prepared statement on H.R. 155, H.R. 5511 and H.R. 5710..     3
    Udall. Hon. Mark, a Representative in Congress from the State 
      of Colorado................................................     7
    Udall. Hon. Tom, a Representative in Congress from the State 
      of New Mexico..............................................     5
        Prepared statement on H.R. 5710..........................     6

Statement of Witnesses:
    Hickman, Hon. Michael J., Chairman, Lake County Colorado 
      Board of County Commissioners, Leadville, Colorado.........    19
        Prepared statement on H.R. 5511..........................    20
    Jandreau, Hon. Michael, Chairman, Lower Brule Sioux Tribe, 
      Lower Brule, South Dakota..................................    12
        Prepared statement on H.R. 155...........................    13
    Lansford, David M., Chairman, Eastern New Mexico Rural Water 
      Authority, and Former Mayor, Clovis, New Mexico............    22
        Prepared statement on H.R. 5710..........................    24
    Quint, Robert, Director of Operations, Bureau of Reclamation, 
      U.S. Department of the Interior, Washington, D.C...........     7
        Prepared statement on H.R. 155...........................     9
        Prepared statement on H.R. 5511..........................     9
        Prepared statement on H.R. 5710..........................    11
    Rudolph, Martha, Director of Environmental Programs, Colorado 
      Department of Public Health and Environment, Denver, 
      Colorado...................................................    15
        Prepared statement on H.R. 5511..........................    17

Additional materials supplied:
    Brumfield, Hon. Gayla, Mayor of Clovis, New Mexico, Statement 
      submitted for the record on H.R. 5710......................    27
    Sazue, Hon. Brandon, Chairman, Crow Creek Sioux Tribe, 
      Statement submitted for the record on H.R. 155.............    37


 LEGISLATIVE HEARING ON H.R. 155, TO PROVIDE COMPENSATION TO THE LOWER 
BRULE AND CROW CREEK SIOUX TRIBES OF SOUTH DAKOTA FOR DAMAGE TO TRIBAL 
  LAND CAUSED BY PICK-SLOAN PROJECTS ALONG THE MISSOURI RIVER (LOWER 
BRULE AND CROW CREEK TRIBAL COMPENSATION ACT); H.R. 5511, TO DIRECT THE 
SECRETARY OF THE INTERIOR, ACTING THROUGH THE BUREAU OF RECLAMATION, TO 
  REMEDY PROBLEMS CAUSED BY A COLLAPSED DRAINAGE TUNNEL IN LEADVILLE, 
   COLORADO, AND FOR OTHER PURPOSES (LEADVILLE MINE DRAINAGE TUNNEL 
REMEDIATION ACT OF 2008); AND H.R. 5710, TO AUTHORIZE THE SECRETARY OF 
THE INTERIOR TO PROVIDE FINANCIAL ASSISTANCE TO THE EASTERN NEW MEXICO 
RURAL WATER AUTHORITY FOR THE PLANNING, DESIGN, AND CONSTRUCTION OF THE 
EASTERN NEW MEXICO RURAL WATER SYSTEM, AND FOR OTHER PURPOSES (EASTERN 
           NEW MEXICO RURAL WATER SYSTEM AUTHORIZATION ACT).

                              ----------                              


                         Thursday, May 8, 2008

                     U.S. House of Representatives

                    Subcommittee on Water and Power

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:00 a.m. in 
Room 1334, Longworth House Office Building, Hon. Grace F. 
Napolitano [Chairwoman of the Subcommittee] presiding.
    Present: Representatives Napolitano, Udall, Lamborn, and 
Herseth Sandlin.
    Ms. Napolitano. The Subcommittee on Water and Power will 
come to order.
    The purpose of today's meeting is to hold legislative 
hearings on H.R. 155, the Lower Brule and Crow Creek Tribal 
Compensation Act, introduced by our colleague, Congresswoman 
Stephanie Herseth Sandlin of Brookings, South Dakota; and H.R. 
5511, the Leadville Mine Drainage Tunnel Remediation Act of 
2008--and while I am at it, this Committee has consented to 
have that posted so that there is a better understanding of the 
issue--introduced by a colleague and member of the 
Subcommittee, Congressman Doug Lamborn of Colorado Springs, 
Colorado; and H.R. 5710, the Eastern New Mexico Rural Water 
System Authorization Act, introduced by our colleague 
Congressman Tom Udall of Santa Fe, New Mexico.
    We welcome our Congress Members, and they should be coming 
in off and on. Today our acting Ranking Member will be 
Congressman Doug Lamborn. We welcome our guests, expecting 
Stephanie Herseth Sandlin, current member of the National 
Resources Committee, and Congressman Steve Pearce, Ranking 
Member of Energy and Minerals Subcommittee, and Congressman Tom 
Udall, a former member of the Natural Resources Committee.
    I ask unanimous consent that Congresswoman Stephanie 
Herseth Sandlin, Congressman Steve Pearce, and Congressman Tom 
Udall be allowed to sit on the dais and participate in 
Subcommittee proceedings today. And without objection, Mr. 
Lamborn, so ordered.
    After my statement, I will recognize all members of the 
Subcommittee for any statement they may have. Any Member who 
decides to be heard will be heard. Any additional material from 
witnesses or anybody in the audience may be submitted for the 
record, or by any other interested party, you will have 10 
business days following today's hearing.
    The five-minute rule with our timer will be enforced, and 
you can see it right there. Green is go, yellow start winding 
it out, and red, I will gavel you softly.

STATEMENT OF THE HON. GRACE F. NAPOLITANO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Napolitano. Today's hearing continues our series of 
legislative briefings dedicated to the many issues that face 
the West. H.R. 155, sponsored by Stephanie Herseth Sandlin, 
deals with the reassessment of tribal compensation due to land 
inundation.
    H.R. 5511 is sponsored by Subcommittee member Doug Lamborn, 
would provide the Secretary of the Interior with the authority 
to address serious water contamination programs associated with 
the Bureau-owned Leadville Mine Drainage Tunnel.
    Last, H.R. 5710, the Eastern New Mexico Rural Water Project 
Act, introduced by Congressman Tom Udall of New Mexico, would 
authorize the Secretary to help in the design and construction 
of the Eastern New Mexico pipeline. This pipeline, when 
constructed, would provide a sustainable water supply to nine 
communities that currently rely on dwindling groundwater 
resources.
    We look forward to hearing from all our witnesses. Thank 
you for being here. And I am pleased to yield to my acting 
Ranking Member, Congressman Doug Lamborn, for his statement.
    [The prepared statement of Ms. Napolitano follows:]

            Statement of The Honorable Grace F. Napolitano, 
              Chairwoman, Subcommittee on Water and Power

    Today's hearing continues our series of legislative briefings 
dedicated to the many issues that face the west. H.R. 155 sponsored by 
Rep. Herseth Sandlin deals with the reassessment of tribal compensation 
due to land inundation. H.R. 5511, as sponsored by subcommittee member 
Doug Lamborn, would provide the Secretary of the Interior with the 
authority to address water contamination problems associated with the 
Bureau owned Leadville Mine Drainage Tunnel. Lastly we will hear a bill 
introduced by Congressman Tom Udall of New Mexico. H.R. 5710, the 
Eastern New Mexico Rural Water Project Act would authorize the 
Secretary to help in the design and construction of the Eastern New 
Mexico Pipeline. This pipeline when constructed would provide a 
sustainable water supply to nine communities that currently rely on 
dwindling groundwater resources.
    We look forward to hearing from all witnesses. Thank you all for 
being here today. I am pleased to now yield to my colleague and friend 
from Spokane, Washington, Ranking Member Congresswoman Cathy McMorris 
Rodgers for her statement.
                                 ______
                                 

    STATEMENT OF THE HON. DOUG LAMBORN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Lamborn. Thank you, Madame Chairwoman, and I appreciate 
your holding this hearing today. It is a pleasure to serve as 
the acting Ranking Member for today.
    This is an important day for the citizens of Lake County, 
Colorado, and for all those who are downstream on the Arkansas 
River. They deserve to hear how the Federal government intends 
to correct problems with the Leadville Mine Drainage Tunnel.
    The Leadville Mine Drainage Tunnel was originally 
constructed by the Federal Bureau of Mines in the 1940s and 
1950s to facilitate the extraction of lead and zinc ore for the 
World War II and the Korean War efforts. The Bureau of 
Reclamation acquired the tunnel in 1959, hoping to use it as a 
source of water for the Frying Pan Arkansas Project.
    Although the tunnel was never used for this project, water 
that flows out of the tunnel is considered part of the natural 
flow of the Arkansas River.
    With the passage and consequent signing into law of H.R. 
429 during the 102nd Congress in 1992, the Bureau constructed 
and continues to operate a water treatment plant at the mouth 
of the tunnel. Groundwater levels at the tunnel have fluctuated 
in recent years. In addition, a collapse in the tunnel has 
increased the tunnel's mine pool significantly, leading to new 
seeps and springs in the area.
    Current estimates suggest that up to one billion gallons of 
water may have built up within the mine pool. This is water 
that is contaminated by heavy metals.
    In November 2007, the EPA sent a letter to the Bureau 
expressing concerns over a catastrophic blowout. And in 
February of this year, the Lake County Commissioners declared a 
state of emergency. One of the commissioners, Mr. Mike Hickman, 
is with us today as a witness.
    Another leader in this effort, State Senator Tom Wiens, was 
unable to be here today, although he wanted to. He has been a 
tireless worker in helping solve the problem addressed by this 
bill.
    With your permission, Madame Chairwoman, I would like to 
submit a copy of a letter I received from the Lake County 
Commissioners dated November 15, 2007, for the record.
    Ms. Napolitano. So ordered, without objection.
    [NOTE: The information submitted for the record has been 
retained in the Committee's official files.]
    Mr. Lamborn. We know that the Bureau of Reclamation is 
completing a task, a risk assessment in this area, and we look 
forward to reviewing that report when it is done. But many of 
the problems reported at this site are not new. Legislation 
addressing this matter and authorizing the Secretary of the 
Interior to rehabilitate this tunnel dates back to at least 
1976.
    In response to the request for action from the local 
community, I worked together with Congressman Mark Udall from 
Colorado, who is also here today, and we introduced H.R. 5511. 
This bill would direct the Bureau of Reclamation to relieve 
water pressure behind certain blockages in the tunnel, 
permanently manage the mine pool behind any blockage to prevent 
releases of contaminated water, and eliminate the potential for 
tunnel failure.
    I also note, Madame Chairwoman, that we have two other 
bills before us today. Mr. Tom Udall of New Mexico has 
introduced a bill that authorizes Federal participation in the 
Eastern New Mexico rural water supply system, and Mrs. Herseth 
Sandlin's bill provides a third round of compensation to two 
tribes in South Dakota.
    I look forward to the testimony on all of these bills 
before us today, and I thank you again for holding this 
hearing. And I yield back.
    [The prepared statement of Mr. Lamborn follows:]

  Statement of The Honorable Doug Lamborn, Acting Ranking Republican, 
             Subcommittee on Water and Power, on H.R. 5710

    Thank you, Madame Chairwoman, for holding this hearing. It's a 
pleasure to serve as the Acting Ranking Republican for today.
    Today is an important day for the citizens of Lake County, 
Colorado. They deserve to hear what the federal government intends to 
do to correct problems with the Leadville Mine Drainage Tunnel. The 
Leadville Mine Drainage Tunnel was originally constructed by the 
federal Bureau of Mines in the 1940's and 1950's to facilitate the 
extraction of lead and zinc ore for the World War II and the Korean War 
efforts.
    The Bureau of Reclamation acquired the Tunnel in 1959 hoping to use 
the tunnel as a source of water for the Fryingpan-Arkansas Project. 
Although the tunnel was never used for the Fryingpan-Arkansas Project, 
water that flows out of the tunnel is considered part of the natural 
flow of the Arkansas River. With the passage and subsequent signing 
into law of H.R. 429 during the 102nd Congress (1992), the Bureau 
constructed and continues to operate a water treatment plant at the 
mouth of the Tunnel.
    Groundwater levels at the tunnel have fluctuated in recent years. 
In addition, a collapse in the tunnel has increased the tunnel's mine 
pool significantly, leading to new seeps and springs in the area. 
Current estimates suggest that up to 1 billion gallons of water may 
have built up within the mine pool. In November 2007, the EPA sent a 
letter to the Bureau expressing concerns over a catastrophic blowout, 
and in February 2008, the Lake County Commissioners declared a state of 
emergency. With your permission Madame Chairwoman, I would like to 
submit a copy of a letter I received from the Lake County Commissioners 
dated November 15, 2007 for the record.
    We know that the Bureau of Reclamation is completing a risk 
assessment in the area, and we look forward to reviewing that report. 
But many of the problems reported at this site are not new. Legislation 
addressing this matter and authorizing the Secretary of the Interior to 
rehabilitate this tunnel dates back to at least 1976. In response to 
the request for action from the local community, I worked together with 
Congressman Mark Udall from Colorado and introduced H.R. 5511. This 
bill would direct the Bureau of Reclamation to relieve water pressure 
behind certain blockages in the tunnel, permanently manage the mine 
pool behind any blockage to prevent releases of contaminated water, and 
eliminate the potential for tunnel failure.
    I also note, Madame Chairwoman, that we have two other bills before 
us today. Mr. Udall of New Mexico has introduced a bill that authorizes 
federal participation in the Eastern New Mexico Rural Water Supply 
system and Mrs. Herseth-Sandlin's bill provides a third round of 
compensation to two tribes in South Dakota. I look forward to the 
testimony on all of the bills before us today. I thank you again for 
holding this hearing.
                                 ______
                                 
    Ms. Napolitano. Thank you. And I would like to call upon 
Mr. Tom Udall. He was here first, so, Tom was here first.

 STATEMENT OF THE HON. TOM UDALL, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW MEXICO

    Mr. Udall. Well, thank you. Thank you very much, Chairwoman 
Napolitano and Ranking Member McMorris Rodgers, who isn't here, 
and also the acting Representative Lamborn. Thank you for 
holding this hearing on H.R. 5710, the Eastern New Mexico Rural 
Water System Authorization Act.
    There has long been a recognized need for a reliable and 
safe supply of potable water for Eastern New Mexico. After 
years of drought and ever-increasing population growth, this 
water supply project is now absolutely critical for the 
continued economic well-being of Curry, Roosevelt, and Quay 
Counties in Eastern New Mexico.
    The Ogallala Aquifer currently provides 100 percent of the 
municipal and industrial water supplies, and the vast majority 
of agriculture water for communities in East Central New 
Mexico. However, both the quantity and quality of this 
groundwater reserve have declined severely in recent decades. 
It is estimated that these groundwater supplies will not be 
able to sustain current use in the next decade, and may be 
functionally depleted within 25 years.
    For 45 years water users in Eastern New Mexico have worked 
to develop an alternative source of municipal water that will 
be sustainable into the future. The Eastern New Mexico Rural 
Water System Authorization Act is the result of years of 
research, of consultation, of planning, and of negotiation, the 
legislation supported by the communities involved, the State of 
New Mexico, and by the entire New Mexico delegation.
    I applaud the efforts of the authority of the state, and of 
the counties and cities involved in this project. They have 
worked expeditiously and effectively to finalize the studies, 
and plan how to move forward with this project.
    The establishment of the Eastern New Mexico rural water 
system is essential to the socioeconomic survival of 
communities in Eastern New Mexico. H.R. 5710 echoes the ongoing 
efforts of the eight cities and counties participating in the 
project. These communities are working to establish innovative 
approaches to conserving water, both agriculturally and 
domestically. They are part of a movement in the West to 
recognize the limitations of this precious resource, and to 
work within these limitations to build strong communities.
    Again, I thank Chairwoman Napolitano and Ranking Member 
McMorris Rodgers and acting Ranking Representative Lamborn for 
holding this important hearing, and also welcome David 
Lansford, who is the former Mayor of Clovis. He is on the panel 
here. He is also, David is the Chairman of the Eastern New 
Mexico Rural Water Authority, and he has been a real leader in 
this process, and has worked in, tirelessly, I think, in his 
years of public service to see that this is accomplished.
    And I think we also have the current mayor in the audience 
here, Gayla Brumfield, who is in the back there, that just 
waved. And she also, we are having a seamless hand-off here 
between former mayor and the current mayor, and all the 
community working together. So it is wonderful to have both of 
you here today.
    And thank you again, Chairwoman Napolitano.
    [The prepared statement of Mr. Tom Udall follows:]

Statement of The Honorable Tom Udall, a Representative in Congress from 
                        the State of New Mexico

    Chairwoman Napolitano, Ranking Member McMorris-Rodgers, and members 
of the Subcommittee,
    Thank you for holding this hearing on H.R. 5710 the Eastern New 
Mexico Rural Water System Authorization Act.
    There has long been a recognized need for a reliable and safe 
supply of potable water for eastern New Mexico. After years of drought 
and ever-increasing population growth, this water supply project is now 
absolutely critical for the continued economic well-being of Curry, 
Roosevelt and Quay counties in eastern New Mexico.
    The Ogallala aquifer currently provides 100 percent of the 
municipal and industrial water supplies and the vast majority of 
agricultural water for communities in east-central New Mexico. However, 
both the quantity and quality of this groundwater reserve have declined 
severely in recent decades. It is estimated that these groundwater 
supplies will not be able to sustain current use into the next decade, 
and may be functionally depleted within 25 years.
    For 45 years, water users in eastern New Mexico have worked to 
develop an alternative source of municipal water that will be 
sustainable into the future. The Eastern New Mexico Rural Water System 
Authorization Act is the result of years of research, of consultation, 
of planning, and of negotiation. The legislation supported by the 
communities involved, the state of New Mexico, and by the entire New 
Mexico Delegation.
    I applaud the efforts of the Authority, of the state, and of the 
counties and cities involved in this project. They have worked 
expeditiously and effectively to finalize the studies and planning 
necessary to move forward with this project.
    The establishment of the Eastern New Mexico Rural Water System is 
essential to the socio-economic survival of communities in eastern New 
Mexico. While vital to New Mexico, H.R. 5710 is just one piece in the 
larger puzzle of water resources in the arid west. States and 
communities must work to address water scarcity with conservation 
efforts, with new technology, and with negotiation of water rights. 
H.R. 5710 echoes the ongoing efforts of the 8 cities and counties 
participating in the project. These communities are working to 
establish innovative approaches to conserving water both agriculturally 
and domestically. They are part of a movement in the west to recognize 
the limitations of this precious resource and to work within these 
limitations to build strong communities.
    Again, I thank you Chairwoman Napolitano, Ranking Member McMorris-
Rodgers, for holding a hearing on this important piece of legislation.
                                 ______
                                 
    Ms. Napolitano. You are very welcome, sir. Mr. Mark Udall.



STATEMENT OF THE HON. MARK UDALL, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Mr. Udall. Thank you, Madame Chairwoman. I will be brief. I 
wanted to thank you for holding this important hearing. This is 
of real interest to not only Lake County and Leadville, but 
anybody who lives along the Arkansas River.
    I want to also welcome the two Coloradans that are here 
with us today, Martha Rudolph and Commissioner Hickman. Thank 
you for traveling a long way to be with us.
    My colleague, Congressman Lamborn, has really explained the 
reason for our legislation. I want to fully associate myself 
with his remarks. And we intend to find a solution. We intend 
to find a solution as quickly as possible.
    I look forward to your testimony. I will have some 
questions when you finish. Thanks again for being here.
    I yield back, Madame Chairwoman.
    Ms. Napolitano. Thank you, Mr. Udall. We will proceed to 
hear from our witnesses. We only have one panel for all the 
three bills, and the witnesses will be introduced before they 
testify. And after we hear from the panel, we will begin 
questions.
    I would like to tell you, I am sorry to be the bearer of 
not-so-good news, we will have votes in about maybe five or 10 
minutes. And it will be almost 40 minutes before we return, 
because there are a number of bills that we have to go vote on. 
So we beg your indulgence, and thank you very much for your 
patience.
    All of your submitted prepared statements will be entered 
into the record, and all witnesses are asked to kindly 
summarize the highpoints of your testimony. And please limit 
your remarks to five minutes. The timer will be used. And if 
you hear me tapping or looking at you, you kind of know that I 
am trying to have you speed it up.
    It also applies to all questioning. A total of five minutes 
for questions, including responses, applies to our members. If 
there are any additional questions, we will have a second 
round, if time permits.
    And for our first panel, we have Mr. Robert Quint, Director 
of Operations, the Bureau of Reclamation here in Washington, 
D.C., to testify on all three bills.
    Mr. Quint.

 STATEMENT OF ROBERT QUINT, DIRECTOR OF OPERATIONS, BUREAU OF 
    RECLAMATION, WASHINGTON, D.C., ACCOMPANIED BY ELIZABETH 
    SUTHERLAND, DIRECTOR OF THE ASSESSMENT AND REMEDIATION 
  DIVISION, U.S. ENVIRONMENTAL PROTECTION AGENCY, WASHINGTON, 
                              D.C.

    Mr. Quint. Good morning, Madame Chairwoman, members of the 
Subcommittee. I am pleased to provide the Department of 
Interior's views on the three bills before the Subcommittee 
today.
    I would also like to add that I am accompanied by Elizabeth 
Sutherland, Director of EPA's Assessment Remediation Division.
    First, H.R. 155 would increase the compensation for the 
Lower Brule and Crow Creek Indian Tribes for their loss of 
lands and cultural resources as a result of the Pick-Sloan 
Missouri Basin Project. The intent of the bill is to put the 
compensation provided to the tribes on par with the 
compensation provided to similarly situated tribes that 
received compensations for losses of the Pick-Sloan Project 
along the Missouri River.
    The Department does not support H.R. 155. However, we agree 
with the General Accounting Office's 1991 and 2006 opinions 
stating that the question of whether additional compensation 
should be provided to the tribes is a policy decision for the 
Congress. If the Subcommittee has detailed questions about this 
bill, the Department may be best suited to respond to them for 
the record.
    Next, H.R. 5511 would direct Interior to implement portions 
of the remedy selected by the Environmental Protection Agency 
for the California Gulf Superfund Site. The Administration 
cannot support H.R. 5511. However, I can report to the 
Subcommittee that Reclamation and EPA are aggressively taking 
action to address any immediate risk.
    Public safety dictates every action Reclamation and EPA 
take at the Leadville Mine Drainage Tunnel, and we have an 
emergency action plan for the tunnel that has been in place 
since 2001. Reclamation is making every effort to make a 
science-based determination regarding whether there is an 
elevated public safety risk below the tunnel, and Reclamation's 
ongoing risk assessment, begun in November 2007, is aimed at 
understanding how the complex geology and extensive subsurface 
mine passages affect the quantity and quality of the drainage 
water inside. The results are expected in June of this year.
    In the meantime, our agencies are committed to the 
following. EPA will complete a removal action that is underway, 
including construction of a relief well, pump, and pipeline to 
transport water to Reclamation's treatment plant. Reclamation 
will operate and maintain the treatment plant, relief wells, 
pump, and pipeline, and if necessary, based on the risk 
analysis, improve the treatment plant to handle increased flows 
of water as a result of the EPA removal action.
    In addition to these actions, Reclamation and EPA are 
evaluating long-term solutions, and will have a better 
understanding of the long-term safety requirements once the 
risk analysis is completed.
    We are working to develop a permanent solution, and we will 
submit proposed legislation if any legislative authority is 
needed to implement it.
    And finally, H.R. 5710, the Eastern New Mexico Rural Water 
Project Act, would authorize the rural water project for 
several Eastern New Mexico municipalities. Reclamation is 
working with the State of New Mexico and the local parties on 
studies for this evolving project over the years. Since 1998, 
Congress has provided $1.76 million for the planning and 
technical assistance, of which more than $1.2 million has been 
transferred directly to the City of Clovis for the work on this 
project.
    Reclamation has previously expressed concerns with the 
adequacy of the conceptual design report, and posed some 
critical questions that needed to be considered before 
construction should proceed. Much progress has occurred, and 
Reclamation continues to work with the local entities to 
develop answers to those concerns.
    The Administration is concerned about this project's high 
Federal cost of $327 million, and for this reason cannot 
support this bill at this time.
    This concludes my statement. I will be pleased to answer 
any of your questions. Thank you.
    [The prepared statements of Mr. Quint follow:]

     Statement of Robert Quint, Director of Operations, Bureau of 
       Reclamation, U.S. Department of the Interior, on H.R. 155

    Good morning Madam Chairwoman and members of the Subcommittee. I am 
pleased to be here today to present the views of the Administration on 
H.R. 155, the ``Lower Brule and Crow Creek Tribal Compensation Act.'' 
For the reasons I will discuss today, the Administration does not 
support this bill.
    H.R. 155, if enacted, would increase the compensation for the Lower 
Brule and Crow Creek Tribes for their loss of lands and cultural 
resources as a result of the Pick-Sloan Project. The intent of the 
legislation is to put the compensation provided to the Lower Brule and 
Crow Creek tribes (Tribes) on par with the compensation provided to 
similarly situated tribes in the region that received compensation for 
losses resulting from the Pick-Sloan water project along the Missouri 
River. The Lower Brule and Crow Creek Tribes received compensation for 
these losses under legislation enacted in 1996 and 1997 discussed later 
in this testimony. Without further analysis, it is not clear why the 
compensation already provided should not be considered adequate. 
However, we will be happy to work with the sponsor of the bill and the 
Tribes to determine if in fact there was an inequitable calculation 
regarding the original size of the trust funds that have been 
established.
    The original statutes providing compensation for these two Tribes 
were the Lower Brule Sioux Tribe Infrastructure Development Trust Fund 
Act (Public Law 105-132), and the Crow Creek Sioux Tribe Infrastructure 
Development Trust Fund Act (Public Law 104-223). Pursuant to these 
bills, two funds, the Crow Creek Fund and the Lower Brule Fund, were 
created in the U.S. Treasury. The interest from these funds is used to 
compensate the Crow Creek and Lower Brule Sioux tribes for damages to 
their reservations and economies as a result of water infrastructure 
development. The original authorized sizes for the Lower Brule Fund and 
the Crow Creek Fund were $39,300,000 and $27,500,000, respectively. 
Enactment of H.R. 155 would increase the maximum size of each fund, 
with additional deposits to be derived from the sale of electric power 
from the Pick-Sloan Missouri Basin program. If this bill is enacted, 
the size of the Lower Brule Fund and the Crow Creek Fund would be 
increased to $129,822,085 and $69,222,084, respectively.
    When the Congressional Budget Office (CBO) scored a similar bill, 
S. 374, in 2006, it estimated that there would be an increase in direct 
spending of $169 million over a ten year period if the bill had been 
enacted. This direct spending would result from the increase in the 
size of the funds provided for under this legislation and also the 
likely reclassification of the funds from budgetary to non-budgetary 
because the bill would extinguish any future claims by the Tribes 
against the federal government related to the Pick-Sloan Missouri River 
Basin Program upon full funding of the trust funds.
    This concludes my testimony. I will be happy to respond to any 
questions you may have.
    Thank you.
                                 ______
                                 

     Statement of Robert Quint, Director of Operations, Bureau of 
       Reclamation, U.S. Department of the Interior, on H.R. 5511

    Madam Chairwoman and Members of the Subcommittee, I am Bob Quint, 
Director of Operations for the Bureau of Reclamation. I am pleased to 
be here today to present the Administration's views on H.R. 5511, the 
``Leadville Mine Drainage Tunnel Remediation Act of 2008.'' We 
recognize the intense public interest in the Leadville Mine Drainage 
Tunnel issues addressed by this bill, and support the goals of this 
bill of ensuring public safety and accomplishing the expeditious and 
efficient cleanup of the California Gulch Superfund site. The 
Administration cannot support H.R. 5511 at present because we have not 
yet determined what further actions are needed to provide a long-term 
solution.
    That being said, I can report to the Subcommittee that Reclamation 
and EPA are aggressively taking action to address any immediate risk.
    In view of the recent concerns of rising groundwater and mine pool 
levels, EPA and the Bureau of Reclamation, in coordination with the 
State of Colorado, are now conducting removal actions. This work 
commenced in February 2008 and includes two major activities. First, 
EPA installed a pumping system in the Gaw mine shaft and has been 
pumping at a rate of 450 gallons per minute since late February. This 
action may lower water levels in the mine pool. In addition, it appears 
to have diminished seeps and springs that had recently appeared in the 
lower California Gulch. Second, EPA is taking steps to drill a relief 
well into the LMDT to lower the level of water in the LMDT and mine 
pool. EPA plans to have the relief well, pump and pipe to the LMDT 
installed and ready to operate in Summer of 2008.
    Both the Department of the Interior and the U.S. Environmental 
Protection Agency (EPA) have a long history in this area. The Leadville 
Mine Drainage Tunnel (LMDT) is located in central Colorado, and was 
originally constructed by the Bureau of Mines from 1943 to 1952. It was 
intended to de-water portions of the Leadville Mining District to 
facilitate the extraction of lead and zinc ore for the WWII and Korean 
War efforts. Reclamation acquired the LMDT in 1959 with the intention 
of using the tunnel as a source of water for the Fryingpan-Arkansas 
project, though water rights issues precluded using the tunnel effluent 
as a water source. Water that flows out of the tunnel is considered 
part of the natural flow of the river.
    In 1975, EPA issued a National Pollutant Discharge Elimination 
System (NPDES) permit to Reclamation because the LMDT effluent contains 
heavy metals. In 1991 Reclamation completed construction of a water 
treatment facility at the LMDT portal--the plant treats the effluent 
flowing from the LMDT to the standards in the NPDES permit.
    EPA listed the California Gulch Site on the National Priority List 
(NPL) in 1983. The 18-square-mile area was divided into 12 areas 
designated Operable Units (OU). The Leadville Mine Drainage Tunnel 
(LMDT) is located beneath OU6, which covers approximately 3.4 square 
miles in the northeastern quadrant of the Site. The Bureau of 
Reclamation owns the LMDT, which is hydrologically connected to OU6. 
Reclamation does not own or operate any sources of contamination on the 
surface of OU6 (i.e., waste rock or tailings) or any portion of the 
surface itself. The objective of OU6 is to control surface sources of 
contamination. Specifically, the objectives are to control erosion of 
mine waste rock and deposition into local water courses; control 
leaching and migration of metals from mine waste rock into surface 
water; control leaching of metals from mine waste rock into 
groundwater; and prevent direct unacceptable exposures to elevated 
concentrations of contaminants in the soil and waste rock. EPA is the 
lead agency to address hazardous substances at the California Gulch NPL 
Site, including OU6 in particular.
    As part of the implementation of the OU6 remedy, EPA collects 
surface runoff from mine waste piles and discharges that surface runoff 
into the Marion Shaft, where it moves through the mine workings to the 
Leadville Mine Drainage Tunnel. This water is seasonal and totals 
approximately 3 to 5 million gallons a year. However, the volume of 
surface water diverted by EPA to the LMDT is less than 1% of the 550 
million to 750 million gallons of water Reclamation treats annually. 
EPA pays Reclamation for the treatment of that water at the Reclamation 
Treatment Plant. The chemistry of the water draining from the LMDT to 
the Reclamation treatment plant is very different from the chemistry of 
the water found on the surface of OU6. It has proven to be possible, 
however, for the Reclamation plant to treat limited amounts of waters 
from OU6 under agreements with EPA.
    Currently, groundwater levels have continued to fluctuate near the 
LMDT. Reclamation is working to assess the threat level to public 
safety through a detailed risk analysis. Reclamation has already 
increased the rate at which water from the LMDT is pumped, treated, and 
discharged into the Arkansas River. Since February 15, Reclamation has 
established capability to increase water treatment at the treatment 
facility by over 80% and today is able to process water at a rate of 
nearly 2,100 gallons per minute (gpm) from the LMDT (or 4.8 cubic feet 
per second). The natural rate of drainage from the tunnel is 1,487 gpm, 
or 3.4 cfs, which amounts to 2,500 acre feet annually.
    Public safety dictates every action Reclamation takes at the LMDT, 
and Reclamation has had an Emergency Action Plan for the LMDT and water 
treatment facility since 2001. Water level indicators and other warning 
systems near the LMDT are tied into the water treatment plant's auto-
dialer for employees, and an audible warning system was installed in 
2002 to alert the Village at East Fork residents in the event of an 
emergency. The system plays an alert message in Spanish and English.
    Reclamation is making every effort to make a science-based 
determination regarding whether there is an elevated public safety risk 
below the LMDT. Reclamation's ongoing risk assessment, begun in 
November 2007, is aimed at understanding how the complex geology and 
extensive subsurface mine passages affect the quantity and quality of 
drainage water inside. The results are expected in June of this year.
    Interior and EPA, at the highest levels, are committed to the 
following:
    <bullet>  EPA will complete the removal action that is underway, 
including the construction of a relief well, the pump and pipeline to 
transport water to Reclamation's treatment plant.
    <bullet>  Reclamation will operate and maintain the treatment 
plant, relief wells, pump and pipeline, and if necessary based on the 
risk analysis, improve the treatment plant to handle increased flows of 
water as a result of the EPA removal action.
    In addition to these actions, Reclamation and EPA are evaluating 
long-term solutions and will have a better understanding of long-term 
safety requirements once the risk analysis is completed. We are working 
to develop a permanent solution to any safety problem and we will 
submit proposed legislation if any legislative authority is needed to 
implement this solution on a long-term basis.
    The Administration cannot support the specific language in H.R. 
5511 at present because we do not yet know what additional specific 
safety measures and funding requirements may be needed. Once the EPA 
relief well is completed in June and water can be pumped from the LMDT, 
any immediate risk should be alleviated and more information about the 
needs for ensuring the safety of the tunnel and long-term water 
treatment options can be assessed. It is possible that the particular 
solution provided for in section 1(b)(2) of H.R. 5511, which requires 
implementation of the OU6 remedy selected by the Administrator of the 
Environmental Protection Agency in 2003, may turn out not to be 
necessary. Further, maintenance and/or repair of the LMDT as prescribed 
in section 1(b)(4) of the bill may be unnecessary because of other 
actions that could be taken to better ensure public safety. Reclamation 
is currently conducting a risk assessment that can be used to shed more 
light on what further mitigating actions may be advisable at the site. 
Reclamation and EPA look forward to working with the Congress and the 
State of Colorado to find the best long-term outcome for the citizens 
of Leadville.
    This concludes my written remarks. We would be pleased to answer 
any questions from the Subcommittee.
                                 ______
                                 

     Statement of Robert Quint, Director of Operations, Bureau of 
       Reclamation, U.S. Department of the Interior, on H.R. 5710

    Madam Chairwoman and Members of the Subcommittee, I am Robert 
Quint, and I am the Director of Operations at the Bureau of 
Reclamation. I am pleased to be here to provide the Department of the 
Interior's views on H.R. 5710, the Eastern New Mexico Rural Water 
Project Act. The Department cannot support H.R. 5710.
    Reclamation has been working with the state of New Mexico and local 
parties on developing concepts for the Eastern New Mexico Rural Water 
Project since Congress authorized feasibility studies in 1966. 
Reclamation has participated in a number of studies on this evolving 
project over the years. Since 1998, Congress has provided $1,763,000 
for planning and technical assistance, of which more than $1.2 million 
has been transferred directly to the City of Clovis, acting as the 
fiscal agent for the local communities, for work on the project. The FY 
2008 omnibus appropriation includes $246,000 for the Project.
    The proposed Eastern New Mexico Rural Water Project would provide a 
sustainable water supply for the eastern New Mexico municipalities of 
Clovis, Elida, Grady, Melrose, Portales, and Texico, as well as Curry 
and Roosevelt counties and Cannon Air Force Base. The area currently 
depends entirely on a groundwater source that is diminishing in both 
quantity and quality. The currently envisioned project would supply 
16,400 acre-feet per year. The water would be delivered through a 
pipeline from Ute Reservoir, which was built by the State of New Mexico 
in 1963 as a water supply source for eastern New Mexico, and would cost 
approximately $436 million to construct, with $8.2 million in annual 
operations and maintenance costs.
    In 2004, Reclamation testified on legislation (H.R. 4623) to 
authorize construction of the Eastern New Mexico Rural Water Supply 
Project. During that hearing, Reclamation cited concerns with the 
adequacy of the Conceptual Design Report to support authorization and 
identified some critical questions that needed to be answered before 
construction should proceed, such as whether all economically viable 
alternatives had been considered, whether design and construction costs 
were consistent with comparable projects, and whether the communities 
that would be sharing project costs had an accurate estimate of how 
much those costs might be. Reclamation also expressed concerns with the 
proposed cost sharing formula, which assumed an 80% federal share for 
construction of the project. The federal cost share in the new 
legislation (H.R. 5710) is 75%.
    In the intervening years, a Reclamation ``Oversight Committee'' has 
been assisting the Eastern New Mexico Rural Water Authority (Authority) 
and their consultants in developing a more complete and thorough 
feasibility report.
    A ``Preliminary Engineering Report'' prepared for the Authority by 
their consultant that was submitted in December 2006 represents 
significant progress toward a feasibility-level analysis. Reclamation 
is continuing to work with the Authority as they further develop the 
proposed project's design, cost estimates, financing plan, and 
environmental analysis.
    The Authority is working with their consultant to take the design 
and associated cost estimate to the feasibility level. Feasibility-
level cost estimates are based on information and data which is 
sufficient to permit the preparation of preliminary layouts and designs 
used to estimate each kind, type, or class of material, equipment, and 
labor necessary to complete a project. A second consultant has been 
selected by the Authority to work on National Environmental Policy Act 
compliance. A third consultant for the Authority is working on a 
detailed plan for financing the project.
    As stated above, the most recent cost estimate for construction, as 
prepared last year by the Authority's consultant, is $436 million, with 
an estimated annual operation and maintenance cost of $8.2 million. The 
local communities would pay 100% of the operation, maintenance, and 
replacement costs.
    Reclamation is committed to working with its customers, States, 
Tribes, and other stakeholders to find ways to balance and provide for 
the mix of water resource needs in the future. The Administration is 
concerned, however, about becoming the primary source of funds for 
these types of projects. Because of this project's high cost, with a 
federal cost share of $327 million, and because this project would 
compete with ongoing work by Reclamation in New Mexico and across the 
west, the Department cannot support H.R. 5710. However, we are working 
with the Authority and the State to bring the project to a point where 
a feasibility determination is possible.
    This concludes my statement, and I am happy to answer any questions 
the Subcommittee may have.
                                 ______
                                 
    Ms. Napolitano. Thank you, Mr. Quint. I would like to move 
on to H.R. 155, Herseth Sandlin, the Hon. Michael Jandreau, 
Chairman of the Lower Brule Sioux Tribe from Lower Brule, South 
Dakota.

 STATEMENT OF THE HON. MICHAEL JANDREAU, CHAIRMAN, LOWER BRULE 
             SIOUX TRIBE, LOWER BRULE, SOUTH DAKOTA

    Mr. Jandreau. Madam Chairman, members of the Committee, 
thank you very much for the invitation to appear before you 
this morning.
    My name is Mike Jandreau. I have been the Chairman of the 
Lower Brule Tribe for 29 years. With me today is the newly 
elected Chairman of the Crow Creek Tribe, Mr. Brandon Sazue, 
and also the members of my Tribal Council and some staff 
members, plus our Legal Counsel in town, Mr. Marshall Marz.
    I would like to express my appreciation to Rep. Herseth 
Sandlin for her introduction of this bill, for the Lower Brule 
and Crow Creek. As you may know, this legislation has been 
developed over many years. The bill passed three times before 
the Senate. It was again reported by the Senate Indian Affairs 
Committee, and the 109th Congress, after the bill was reported 
in the 109th Congress. However, Chairman McCain of the Indian 
Affairs Committee asked GAO for a report on the legislation. A 
mathematical error was discovered. The amount of the 
compensation was reduced; and the bill was reduced from $186 
million to $129 million, or by $57 million. The Crow Creek 
amount was reduced by $36 million, from $105 million to $69 
million.
    A new Section 5 was added, making it clear as to the Lower 
Brule and Crow Creek legislation, that this bill would be full 
and final compensation for those River claims. In addition, it 
stated that if any other further compensation was for the rest 
of the tribes along the Missouri, then Lower Brule and Crow 
Creek would not participate. It also made certain that Section 
5 of H.R. 155 would not be a precedent beyond the Missouri 
River Basin Program.
    Further, I believe in addressing the request that we are 
here for the third time, I do not believe that the concept of 
the final asking price that was used by GAO is appropriate to 
our situation. While normally it is an indication of good will, 
we find that there was no appeal; that it was a take-it-or-
leave-it situation that we found ourselves in. And that the 
legislation that was initially passed, there was no process 
allowed to the tribes to adequately determine the true extent 
of our loss.
    Consequently, we have went forward on these two occasions, 
both Crow Creek and Lower Brule, to seek compensation for the 
ongoing use of our water right for the development of 
electricity, for the ongoing inundation and what is suffered by 
the tribes as a result of that.
    In 1996 and 1997, when the trust funds were enacted, the 
capitalization was considered an inter-governmental transfer of 
funds. As a result, the capitalization was not scored as a cost 
to the United States. Specifically, the report said the deposit 
to trust funds would be an inter-governmental transfer, and 
there would be no net outlays associated with it.
    Since Senate Report 105-46 at 18, H.R. 155 would amend the 
enacted trust funds, and should therefore use the same CBO 
methodology.
    And so thank you very much for the opportunity.
    Ms. Napolitano. You have time to wrap up, sir.
    Mr. Jandreau. I would like to say, in wrapping up, that 
this legislation is vitally important to the Lower Brule and 
the Crow Creek Tribes to regain a quality of life that was so 
severely taken away from the tribes in the 1950s and 1960s. 
Thank you.
    [The prepared statement of Mr. Jandreau follows:]

             Statement of The Honorable Michael Jandreau, 
                   Chairman, Lower Brule Sioux Tribe

    Chairwoman Napolitano, Members of the Committee, thank you very 
much for the invitation to appear before you this morning. I am 
Chairman Michael Jandreau of the Lower Brule Sioux Tribe. I have been 
Chairman at Lower Brule for 29 years. With me today is Chairman Brandon 
Sazue of the Crow Creek Sioux Tribe, members of our Tribal Council, and 
our Legal Counsel, Marshall Matz. Chairman Sazue was just installed in 
his new position two days ago, on May 6th.
    I would like to express my appreciation to Representative Herseth 
Sandlin for introducing the Lower Brule and Crow Creek Compensation 
Act, H.R.155. We are well served in South Dakota by Ms. Herseth 
Sandlin. Senators Thune and Johnson have introduced a companion bill in 
the Senate.
    As you may know, the legislation before you today has been 
developed over the course of many years. An earlier version of the bill 
passed the Senate three times in the 108th Congress and was again 
reported by the Senate Indian Affairs Committee in the 109th Congress. 
After the bill was reported in the 109th Congress, however, Chairman 
McCain then asked the GAO for a report on the legislation. A 
mathematical error was discovered and the legislation before you was 
modified in several important ways:
    <bullet>  The amount of compensation was reduced. For Lower Brule 
the amount in the bill was reduced from $186 million to $129 million, 
or by $57 million. The Crow Creek amount was reduced by $36 million, 
from $105 million to $69 million.
    <bullet>  A new Section 5 was added to the bill making it clear 
that as to Lower Brule and Crow Creek this legislation would be full 
and final compensation. If additional legislation were enacted for all 
other Missouri River Tribes it would not include any additional amount 
for our two Tribes.
    <bullet>  Section 5 also makes it clear that H.R. 155 would not be 
a precedent beyond the Missouri River Basin Program.
    Madam Chairwoman, the Flood Control Act of 1944 may have been good 
for the United States, but it has been devastating for Missouri River 
Tribes. The Tribes of the Northern Great Plains are, by and large, the 
poorest Tribes in the Unites States. We have gaming but we are located 
so far from any population center that gaming it is not a major profit 
center for our Tribes. Farming is much more important to the economy of 
Lower Brule than gaming. Several of our farm products are then sold 
nation wide under our Tribal brand name. Our popcorn is marketed under 
the brand name ``Lakota Popcorn''.
    Several years ago, in partial compensation for the damage caused by 
Pick-Sloan, the Congress did enact two Infrastructure Development Trust 
Funds, one for Lower Brule (Public Law 105-132) and one for Crow Creek 
(104-223). We have used these funds to the best advantage of our 
Tribes. Meetings were held with our elders and other Tribal members to 
establish priorities and many critical projects have been undertaken. 
But we have only scratched the surface of what needs to be done to 
bring Tribal life and our Tribal economies into the mainstream of 
American life.
    It was very painful for me to read the popular book, The World is 
Flat, and realize that the United States is outsourcing jobs to China 
and India when many American Indian reservations have an unemployment 
rate over 80% and a third world standard of living. Our health 
statistics do not exist anywhere else in the United States of America.
    The Lower Brule and Crow Creek Compensation Act would enable our 
two Tribes to move forward with health care, justice programs, 
education, transportation, broadband, and our many other needs. It is 
for this reason that we are prepared to accept H.R. 155 as full and 
final compensation.
    Finally, let me address the issue of cost. There is a modest cost 
to the bill; the exact cost will depend on the prevailing interest 
rate. My best estimate is that the bill will cost approximately $6 
million per year, $30 million over five years or $60 million over ten 
years. Lower Brule would have its trust fund increased by $90.5 million 
and Crow Creek would have its trust fund increased by $41.7 million for 
a total of $132.2. At five per cent interest (5%) it would cost the 
federal government approximately $6 million per year.
    In 1996 and 1997, when the trust funds were enacted, the 
capitalization was considered an inter-governmental transfer of funds. 
As a result the capitalization was NOT scored as a cost to the United 
States. Specifically, the Senate Report said: ``the deposit to the 
trust fund would be an intragovernmental transfer and there would be no 
net outlays associated with it''. Senate Report 105-146, at 18. H.R. 
155 would amend the enacted trust funds and should therefore use the 
same CBO methodology.
    Further, we ask that the Committee consider the modest cost of this 
legislation in the context of history and the revenue that is being 
generated each year by Pick-Sloan Program for the United States.
    The Missouri River Valley, the longest in the country, drains one-
sixth of the United States. The Flood Control Act of 1944, creating the 
Pick-Sloan Missouri River Basis Program included the construction of 
six dams, four of which are in South Dakota. (Gavins Point runs between 
South Dakota and Nebraska.) Two of these dams, Fort Randall and Big 
Bend flooded the Lower Brule and Crow Creek Reservations.
    According to the Bureau of Reclamation, the Program was ``designed 
to benefit the entirety of the Missouri River Basin'' by providing 
hydroelectric power, flood control measures, navigational improvement, 
irrigation and recreational opportunities. ``The Pick-Sloan Missouri 
River Project has provided an accumulated $2.3 billion in flood control 
benefits from 1950 to 1999'' declares their web site.
    The power plants at the dams have a total capacity of producing 2.5 
million kilowatts of electricity. The sale of this electricity produced 
$437 million in 2006. Over ten years, that is $4.4 billion in direct 
revenue to the federal government (over and above the flood control 
benefits). We are asking for $60 million, or less than a 1.5% of the 
revenue.
    The Tribes that had their land taken to build the dams and their 
water used to produce the electricity do not share in these proceeds. 
The legislation before you today is intended to compensate our two 
Tribes and finally provide some degree of fairness to what has 
happened. We believe that the Congress should look at the modest cost 
of our bill, $6 million per year, in this context.
    In short, the United States took our best land and our water (under 
the Winters doctrine) to produce electricity. The United States then 
sells the electricity. None of the proceeds from the sale of the 
electricity generated with our water on the lands that were Tribal 
lands goes to the Tribes. There is no division or splitting of the 
proceeds. Adding insult to injury, the Tribes are then charged for the 
electricity that we use. The Pick Sloan project may have been good for 
the country but it was not good for Lower Brule or Crow Creek.
    This is fundamentally wrong! Further, we are not talking about 
injustices that were committed against Indian people in the 1860's. We 
are talking about this year, 2008. It is time to correct the record and 
enact legislation that compensates our Tribes fully and fairly for the 
land that has been lost and the resources taken.
    Thank you very much for your consideration. I would be pleased to 
answer any questions.
                                 ______
                                 
    Ms. Napolitano. Thank you very much for your testimony. We 
have probably about 10 minutes, so we will go on to our next 
witness, if you don't mind. Do you want to go ahead and 
introduce?
    Mr. Lamborn. Yes. I am pleased to introduce from Colorado, 
Martha Rudolph, who is the Director for Environmental Programs 
with the Colorado Department of Public Health and Environment 
out of Denver.
    Welcome.

    STATEMENT OF MARTHA RUDOLPH, DIRECTOR FOR ENVIRONMENTAL 
PROGRAMS, COLORADO DEPARTMENT OF PUBLIC HEALTH AND ENVIRONMENT, 
                        DENVER, COLORADO

    Ms. Rudolph. Thank you. Chairwoman Napolitano and members 
of the Subcommittee, I would like to thank you today for the 
opportunity to express Colorado's support for H.R. 5511, the 
Leadville Mine Drainage Tunnel Remediation Act of 2008.
    For many years, Colorado has urged the Bureau of 
Reclamation to take responsibility for the repair and 
maintenance of the Leadville Mine Drainage Tunnel, and to 
participate in the implementation of the selected remedy for 
the California Gulch Superfund Site to protect the Arkansas 
River.
    The Bureau has steadfastly declined to take on this 
responsibility. H.R. 5511 would change this, and would require 
the Secretary of the Interior, through the Bureau of 
Reclamation, to repair and maintain the structural integrity of 
the LMDT, the tunnel, and to participate in the California 
Gulch Superfund Remedy.
    During World War II and Korean War, strategic metals mined 
in the Leadville area were needed for the war effort. To 
support this effort, the Bureau of Mines constructed the 
Leadville Mine Drainage Tunnel to provide continuous drainage 
of the mines in the Leadville mining district.
    In 1959 the Bureau of Reclamation acquired ownership of the 
tunnel, hoping to acquire water rights associated with the mine 
drainage, but not wanting to take on any responsibility for the 
repair or maintenance of the tunnel. Despite its stated 
preference that it not be responsible for the tunnel, the 
Bureau constructed a water treatment plant at the mouth of the 
tunnel, and began to treat the mine drainage in 1979, pursuant 
to a national pollutant discharge elimination system permit 
issued to the Bureau by the EPA.
    An unfortunate legacy of the intense mining in the 
Leadville area is its impact on another valuable resource: the 
Arkansas River. The headwaters of the Arkansas River originate 
near Leadville. The Arkansas is home to abundant aquatic life, 
and it serves as a valuable source of drinking water for a 
number of communities, and is a critical source of water for 
agricultural uses. It is one of the more popular rivers for 
rafting and recreational uses.
    Protecting the Arkansas River and its ecosystem is of 
paramount importance to the local residents of Lake County, and 
to all the people of Colorado. Improving and protecting this 
river led to the decision to add the California Gulch area to 
the National Priorities List in 1983, after a surge event from 
another drainage tunnel near Leadville, the Yak Tunnel, turned 
the Arkansas River red for 20 miles.
    Much work has been done to clean up this area, and the 
quality of water in the Arkansas River has improved. However, 
the remedy for the area of the site known as Stray Horse Gulch, 
also known as Operable Unit No. 6, has not been fully 
implemented, because it requires the participation by the 
Bureau, and the treatment of contaminated water at the Bureau's 
water treatment plant at the mouth of the tunnel.
    Despite efforts at minimizing the impacts on the Bureau to 
treat this water, the Bureau has refused to assist in this 
remedy. What gains have been made in cleaning up the Arkansas 
may be lost, however, because of the condition of the tunnel. 
Over the years the tunnel has fallen into disrepair, largely 
due to poor maintenance. Many collapses first occurred in the 
1960s.
    Of greatest concern to the residents of Lake County and to 
the people of Colorado is the most recent collapse. Within the 
last year, the level of the water in the mine pool that feeds 
into the tunnel has increased to the highest ever seen, 
resulting in many new seeps and springs in the area.
    The fear is that if the tunnel suffers a blowout, millions 
of gallons of contaminated water can surge down the Arkansas, 
resulting in significant property damage, and devastating many 
miles of aquatic life, and reversing years of work to clean the 
Arkansas.
    In November 2007, EPA sent a letter expressing its concern 
regarding the potential for a catastrophic blowout of the 
tunnel, to the Bureau of Reclamation. And in February, the Lake 
County Commissioners declared a state of emergency. Governor 
Bill Ritter sent letters to both President Bush and Secretary 
Kempthorne urging them to take action, to treat the water 
behind the collapse to reduce the mine pool.
    Colorado believes action is needed now to direct the Bureau 
of Reclamation to take responsibility to repair and maintain 
the structural integrity of the tunnel, and to participate in 
the implementation of the remedy for the California Gulch 
Superfund Site to avoid any tragic impacts to the people of 
Lake County and the Arkansas River.
    H.R. 5511 would provide such direction. We believe this 
bill addresses an important issue to the people of Colorado, 
and its passage is critical to the long-term protection of 
local residents in Lake County, and to the long-term protection 
of the Arkansas River ecosystem. Thank you for the opportunity 
to testify before this Subcommittee today. I would be happy to 
answer any questions.
    [The prepared statement of Ms. Rudolph follows:]

   Statement of Martha Rudolph, Director of Environmental Programs, 
          Colorado Department of Public Health and Environment

    Chairwoman Napolitano and members of the Subcommittee, I would like 
to thank you today for the opportunity to present Colorado's views on 
H.R. 5511, The Leadville Mine Drainage Tunnel Remediation Act of 2008. 
This bill makes clear that the Secretary of the Interior, through the 
Bureau of Reclamation, has both the authority and the responsibility to 
repair and maintain the structural integrity of the Leadville Mine 
Drainage Tunnel (LMDT), and this bill requires the Bureau of 
Reclamation to participate in the implementation of the remedy for the 
California Gulch Superfund Site in accordance with the Record of 
Decision agreed to by the Environmental Protection Agency and the State 
of Colorado. Colorado has long urged the Bureau of Reclamation to take 
on the responsibilities outlined in H.R. 5511, therefore Colorado 
supports this bill.
    The LMDT is located in Lake County, just outside the City of 
Leadville. Located at an elevation of 10,152 feet, Leadville is the 
highest incorporated city in the United States. Leadville's history 
centers around mining. During World War II, miners in Leadville were 
given exemptions from the draft in order to support the war effort by 
producing strategic metals. To facilitate the mining of these metals, 
the U.S. Bureau of Mines began construction of the LMDT in 1943 to 
provide continuous drainage of the mines in the surrounding Leadville 
Mining District. The LMDT was completed in 1952 to a length of 
approximately 12,000 feet. In 1959 the Bureau of Mines declared the 
LMDT excess real property, and the Bureau of Reclamation acquired 
ownership of the LMDT hoping to obtain water rights to the mine 
drainage. Following the passage of the Clean Water Act in 1972, the EPA 
issued the first National Pollutant Discharge Elimination System 
(NPDES) permit for the LMDT in 1975. After several years of attempting 
to meet the limitations in this permit, the Bureau of Reclamation 
eventually constructed a water treatment plant at the mouth of the LMDT 
and began to treat the mine drainage in 1979.
    An unfortunate legacy of the intense mining in the Leadville Mining 
District is its impact on another valuable resource, the Arkansas 
River. The headwaters of the Arkansas River are located near Leadville. 
As it flows through the high mountain valleys and down through the 
eastern plains of Colorado, the Arkansas River supports a wide variety 
of uses. Throughout its length it serves as a precious resource to 
sustain a diversity of aquatic life and wildlife. It is a valuable 
source of drinking water for a number of communities, and is a critical 
source of water for agriculture uses. Notably, it is one of the more 
popular rivers for rafting and recreational uses. Protecting the 
Arkansas River and its ecosystem is of paramount importance to the 
local residents of Lake County and to all the people of Colorado.
    The significance of protecting the Arkansas River was highlighted 
in the early 1980s when another mine drainage tunnel near Leadville, 
the Yak Tunnel, had what was called a ``surge event'' discharging 
enough tainted water to turn the Arkansas River red for 20 miles. In 
response to this event the site was added to the National Priorities 
List in 1983. The listed elements of the Superfund site were the Yak 
Tunnel, mine waste piles in California Gulch and its tributaries, the 
waters in California Gulch that empty into the Arkansas River, and 11 
miles of the Arkansas River directly below the confluence with 
California Gulch. EPA specifically excluded the Leadville Mine Drainage 
Tunnel from the Superfund site based on the Bureau of Reclamation's 
then existing responsibilities to treat the LMDT discharge under the 
Clean Water Act.
    Even though the LMDT is not part of the California Gulch Superfund 
site, EPA and Colorado selected a remedy that would require both the 
use of the LMDT and the commitment by the Bureau of Reclamation to 
treat contaminated surface water from the Stray Horse Gulch area of the 
Superfund site before its discharge into the Arkansas River. The Stray 
Horse Gulch area of the site (called Operable Unit 6) includes many 
mine waste piles. Surface water flowing over these waste piles, unless 
diverted, contributes contaminated surface runoff into California 
Gulch. EPA and Colorado identified different remedies to handle this 
surface runoff, and ultimately selected the remedy that would collect 
contaminated water from the area and direct it down a mine shaft 
connected to the LMDT. Because the Bureau of Reclamation is not 
required under the Superfund law to treat this contaminated water at 
its treatment plant, EPA and Colorado have attempted for several years 
to negotiate with the Bureau to obtain its cooperation to fully 
implement this remedy.
    In an effort to gain this cooperation, EPA incorporated the 
following design aspects into the remedy to minimize the additional 
impact on the Bureau of Reclamation caused by treating this additional 
contaminated surface water:
    <bullet>  Construction of a bulkhead in the LMDT to isolate the 
contaminated mine water naturally draining into the LMDT from clean 
alluvial groundwater;
    <bullet>  Installation of wells behind the bulkhead and 
construction of a pipeline to convey the contaminated water to the 
Bureau of Reclamation's treatment plant;
    <bullet>  Backfilling the LMDT's lower portions to prevent clean 
ground water from entering and flowing to the treatment plant, and to 
protect against collapse and failure (since the Bureau of Reclamation 
currently treats water that is significantly diluted by clean 
groundwater, this would decrease the volume of water to be treated and 
therefore decrease the Bureau of Reclamation's overall treatment 
costs); and,
    <bullet>  Routing contaminated surface water from the Stray Horse 
Gulch area during spring runoff into the mine workings connected to the 
upper reaches LMDT where it would be conveyed through the pipeline to 
the Bureau of Reclamation's treatment plant.
    Ultimately this remedy would treat contaminated mine pool water 
including spring run-off (thereby protecting the Arkansas River), 
reduce the amount of water treated by the Bureau of Reclamation 
(thereby decreasing its operating costs), and provide protection 
against structural failure of the LMDT.
    Despite many attempts by Colorado and EPA to convince the Bureau of 
Reclamation to participate in this proposed remedy for Operable Unit 6, 
the Bureau contends that it lacks the statutory authority or mandate to 
treat this additional contaminated surface water from the Stray Horse 
Gulch area. This long-standing position of the Bureau of Reclamation 
has stymied Colorado's and EPA's efforts to implement the selected 
remedy for Operable Unit 6. H.R. 5511 would break this log-jam by 
directing the Bureau of Reclamation to take responsibility for the 
LMDT, and to participate in the selected remedy for Operable Unit 6.
    Congressional action has become more critical now than ever before. 
Since the Bureau of Reclamation assumed ownership of the LMDT in 1959, 
there have been many concerns regarding tunnel safety and potential 
environmental threats. Due to a lack of maintenance, the condition of 
the LMDT has deteriorated over time. There have been many collapses 
within the LMDT beginning in the 1960's. Although the Bureau of 
Reclamation took some steps in response to these early collapses, the 
Bureau has continued to assert that it is not responsible for the 
maintenance or repair of the LMDT. Most recently, the mine pool that 
feeds into the LMDT has increased to a level never before seen, 
resulting in many new seeps and springs in the area, likely due to a 
recent collapse within the LMDT. In November, 2007 EPA sent a letter 
expressing its concerns regarding the potential for a catastrophic 
blowout of the LMDT to the Bureau of Reclamation, and on February 13, 
2008 the Lake County Commissioners declared a state of emergency. 
Colorado Governor Bill Ritter sent a letter to President Bush asking 
him to request Secretary Kempthorne to direct the Bureau of Reclamation 
to treat the water accumulating behind the blockage in the LMDT at its 
water treatment plant to help reduce the build up of water draining 
into the LMDT. Governor Ritter made the same request directly to 
Secretary Kempthorne.
    Fortunately, to address the immediate concerns of the high levels 
of the mine pool and the pressure within the LMDT, EPA has begun 
pumping water from the Gaw shaft located near the LMDT, and in June EPA 
is scheduled to commence drilling directly into the LMDT to pump water 
from the upper reaches of the LMDT and to transfer the water through a 
pipeline to the Bureau of Reclamation's treatment facility where the 
Bureau has agreed to treat this water before it is discharged into the 
Arkansas. While this action responds to the immediate concerns of a 
LMDT blowout, it will not address the long-term need for LMDT 
maintenance and repair, and the commitment to reduce the mine pool and 
to treat contaminated mine and surface water discharging from the LMDT 
in perpetuity. Unfortunately, the Bureau of Reclamation is continuing 
to stall, and is refusing to take necessary action to address the 
condition of the LMDT, preferring to take the time to study the risks 
associated with the increasing severity of the tunnel failures, and 
declining now to affirmatively accept any responsibility to repair or 
maintain the LMDT, or to treat the contaminated water, regardless of 
the outcome of the study. Ultimately the Bureau of Reclamation must 
take responsibility for the LMDT regardless of the study conclusions. 
H.R. 5511 would make it clear that the Bureau of Reclamation is 
responsible for the repair and maintenance of the LMDT and must 
participate in the Operable Unit 6 remedy. Congressional action is 
needed now for the long-term protection of the local residents of Lake 
County, and for the long-term protection of the Arkansas River 
ecosystem.
    Thank you for the opportunity to testify before this Subcommittee 
today. I would be happy to answer any questions you might have.
                                 ______
                                 
    Ms. Napolitano. Thank you for your testimony. We do have 
eight minutes to get to the Floor, so at this point we will 
call recess, and we will take up where we left off.
    Thank you for your testimony, and we will be back.
    [Recess.]
    Ms. Napolitano. The hearing of the Subcommittee on Water 
and Power resumes, with the questioning of the panel. I 
apologize; I told you it was going to be long, I didn't realize 
it was going to be this long.
    But I would like to begin to go on with the witness of, 
Martha Rudolph, you already have been our witness, and we move 
on to the Hon. Mike Hickman, Chairman of the Lake County 
Commissioners in Leadville.

         STATEMENT OF THE HON. MIKE HICKMAN, CHAIRMAN, 
         LAKE COUNTY COMMISSIONERS, LEADVILLE, COLORADO

    Mr. Hickman. Madame Chair and other Committee members, my 
name is Michael J. Hickman. I am the Chair of the Lake County 
Board of County Commissioners in Lake County, Colorado.
    I would like to thank you for the opportunity to present 
Lake County's views on H.R. 5511, the Leadville Mine Drainage 
Tunnel Remediation Act of 2008.
    I am here to testify in support of this bill on behalf of 
Lake County and its citizens. I also wish to impress upon you 
today the importance of a comprehensive Federal solution to 
reduce the threat posed by the growing mine pool associated 
with the blockage behind the Leadville Mine Drainage Tunnel. 
Such a solution is critical to protect the local residents of 
Lake County as well as the ecosystem of the Arkansas Valley 
Watershed.
    In 1959 the Bureau of Mines transferred to the LMDT the 
Leadville Mine Drainage Tunnel. Since that time, the Bureau of 
Reclamation has declined to take responsibility for the upkeep 
and repair of the tunnel. It has only accepted responsibility 
for treating contaminated water flowing out of the tunnel.
    The lack of repair and upkeep of the tunnel has led to a 
series of what appears to be collapses deep within the LMDT 
over time that have brought us to the situation we face today. 
Groundwater levels in the mining district are now at historical 
highs, and blockage in the tunnel have contributed to the 
elevated mine pool estimated to be over one billion gallons.
    Lake County has experienced snow-pack levels this winter of 
more than 150 percent of normal. With spring runoff set to 
break loose at any moment, a large volume of water is about to 
be added to the mine pool, already busting at its seams.
    This historic buildup of water behind the blockage in the 
tunnel presents a serious threat to the citizens of Lake 
County, public and private property, local domestic water 
supply, and the water quality of the Arkansas River, water 
quality for their drinking water source.
    Based upon this threat, Lake County Board of County 
Commissioners declared a state of emergency on February 13, 
2008. Since the emergency declaration, both the EPA and the BOR 
have quickly moved toward acting to begin dewatering the mining 
pool by pumping water at the Gaw Shaft. A pipeline is under 
construction by the EPA to bypass the blockage in the LMDT to 
reconnect the mine pool with the treatment plant.
    However, this is only a temporary solution to the needed--a 
temporary solution is needed to solve this problem once and for 
all.
    The solution is a multi-pronged approach that includes 
preventing clean surface water from infiltrating the mine pool 
and implementing of the California Gulch Superfund Site 
Operable Unit Six Remedy. Today, both the EPA and the Bureau of 
Reclamation will not take responsibility for a long-term fix of 
the mine pool problem.
    For decades, Lake County has experienced frustration with 
the inability of these agencies to look at long-term fixes. 
Both say this is not my job. In fact, we still basically--in 
fact, we still, basically in the same place we were in, 1976. 
And I have a copy of the 1976 hearing that I have presented 
into the record.
    At that time, the Bureau of Reclamation was saying the 
exact same things they are saying today. We basically are not 
taking action, and we need them to take action.
    During the same hearing, we had the Colorado Department of 
Natural Resources submit testimony regarding the funding of the 
tunnel. Finally there is present danger of loose blockage 
material breaching, that possibly could be breaching from 
water, is pushing against the pressure of more than two tons 
per square foot.
    H.R. 5511 presents an opportunity for Congress to finally 
tell the Bureau of Reclamation that it is their job to maintain 
the tunnel and implement the remedy of OU-6. If Congress does 
not tell the Bureau of Reclamation that they must do this, past 
history clearly tells us they won't.
    H.R. 5511 directs the Bureau of Reclamation to participate 
in the implementation of Operable Unit 6 remedy by testing 
water behind the blockage. It also directs the BOR to take 
necessary steps to prevent tunnel failure, and preclude 
uncontrolled releases of water.
    Lake County and its citizens support the intent of this 
bill. We have high hopes that finally the question of which 
agency bears the responsibility to address the rising mine pool 
in Lake County will be answered by Congress, by directing the 
BOR to take responsibility.
    Thank you, Madame Chair.
    [The prepared statement of Mr. Hickman follows:]

                Statement of Michael J. Hickman, Chair, 
           Lake County Colorado Board of County Commissioners

    My name is Michael Hickman. I am Chair of the Lake County Board of 
County Commissioners in Lake County, Colorado. I would like to thank 
you for the opportunity to present Lake County's views on H.R. 5511 
``The Leadville Mine Drainage Tunnel Remediation Act of 2008.''
    I am here to testify in support of this bill on behalf of Lake 
County and its citizens. I also wish to impress upon you today the 
importance of a comprehensive federal solution to reduce the threat 
posed by the growing mine pool associated with blockages behind the 
Leadville Mine Drainage Tunnel. Such a solution is critical to protect 
the local residents of Lake County as well as the eco-system of the 
Arkansas River and the drinking water supply of the Arkansas Valley 
Watershed.
    I'd like to start by giving you some background. Leadville and its 
historic mining district sit in the highest valley of the Arkansas 
River in the heart of the Rocky Mountains. Leadville is the site of 
mining activities that have produced gold, silver, lead and zinc. 
Mining began in the Leadville area in 1859 when prospectors working the 
channels of the Arkansas River tributaries discovered gold at the mouth 
of California Gulch.
    Later, miners tunneled deep into the mountains resulting in 
extensive development of underground mines in the mining district. 
Eventually most of these mines were abandoned. The U.S. Bureau of Mines 
began driving the Leadville Mine Drainage Tunnel in 1943 to facilitate 
mine drainage in order for metals such as lead, zinc and manganese to 
be extracted for the World War II effort.
    In 1959, the Bureau of Mines transferred the LMDT to the Bureau of 
Reclamation. Since that time, the Bureau of Reclamation has declined to 
take responsibility for the upkeep and repair of the tunnel. It has 
only accepted responsibility for treating the contaminated water 
flowing out of the mine pool and into the blocked tunnel through 
construction of a water treatment plant in the late 1970's, built after 
a Sierra Club lawsuit.
    The lack of repair and upkeep of the tunnel have lead to a series 
of what appear to be collapses deep within the LMDT over time that have 
brought us to the situation we face today. Groundwater levels in the 
mining district are now at historic highs and blockages in the tunnel 
have contributed to the elevated mine pool water estimated to be over 
one billion gallons.
    Lake County has experienced snow pack levels this winter of more 
than 150% of normal. With spring run off set to break loose at any 
moment, a large volume of water is about to be added to a mine pool 
already bursting at the seams. This historic build up of water behind 
the blockages in the tunnel presents a serious threat to the citizens 
of Lake County, public and private property, local domestic water 
supply, and the water quality of the Arkansas River Basin. 
Approximately one million citizens in Colorado rely on the Arkansas 
River water quality for their drinking water supply.
    Based upon this threat, the Lake County Board of County 
Commissioners declared a State of Emergency on February 13, 2008. Since 
the Emergency Declaration, both the Environmental Protection Agency and 
the Bureau of Reclamation have quickly moved toward actions to begin 
dewatering the mine pool by pumping water at the Gaw Shaft. A pipeline 
is under construction by the EPA to by-pass the blockages in the LMDT 
and reconnect the mine pool to the LMDT treatment plant. However, this 
is only a temporary solution to the mine pool problem. A comprehensive 
long-term solution is needed to solve this problem once and for all.
    The solution is a multi-pronged approach that includes, preventing 
clean surface water from infiltrating the mine pool and implementation 
of the California Gulch Superfund Site Operable Unit 6 remedy. To date, 
however, both EPA and the Bureau of Reclamation will not take 
responsibility for the long-term fix of the mine pool problem. For 
decades, Lake County has experienced frustration with the inability of 
these agencies to sort out responsibilities. Both agencies continue to 
say to the long-term fix, ``This is not my job!''
    In fact, we are still basically in the same place we were when 
previous hearings were held on Capitol Hill in June 1976 to discuss a 
bill to authorize stabilization and rehabilitation of the Leadville 
Mine Drainage Tunnel. I refer you to the transcript of the Hearing 
Before the Subcommittee on Energy Research and Water Resources of the 
Committee on Interior and Insular Affairs United States Senate on S. 
3394, June 7, 1976. I am providing you with a copy of the transcript 
from those hearings as a supplement to my testimony today.
    At that time, the Assistant Commissioner of the Bureau of 
Reclamation, Department of the Interior, testified that ``As stated in 
the Department's letter of June 7, 1976 to the committee, the 
Department recommends that the committee defer action on the bill at 
this time pending further review by the Department...of various 
alternative solutions.'' The Assistant Commissioner went on to say, 
``Appropriate action needs to be taken with respect to the public 
safety and water quality problems associated with the tunnel. As 
already indicated, the administration has not completed its review of 
the available data, and, therefore, does not yet have a position as to 
what action should be taken.''
    During these same hearings in 1976, the Colorado Department of 
Natural Resources submitted testimony regarding the tunnel, ``Finally, 
there is the ever present danger of the loose blockage material being 
breached by water which is pushing against it at a pressure of more 
than two tons per square foot. This is a serious threat to property and 
human life, particularly because of the mobile home park adjacent to 
the tunnel portal.'' Yet, here we are today still facing the same 
threat as we were in 1976 and the Bureau of Reclamation is still 
wanting to study the problem.
    H.R. 5511 presents an opportunity for Congress to finally tell the 
Bureau of Reclamation that it is their job to maintain the tunnel and 
to implement the remedy for Operable Unit 6. If Congress does not tell 
the Bureau of Reclamation that they must do this, past history clearly 
tells us they won't.
    H.R. 5511 directs the Bureau of Reclamation to participate in the 
implementation of the Operable Unit 6 remedy by treating water behind 
the blockage. It also directs the Bureau of Reclamation to take 
necessary steps to prevent tunnel failure and preclude uncontrolled 
release of water.
    Lake County and its citizens support the intent of this bill. We 
have high hopes that, finally, the question of which agency bears the 
responsibility to address the rising mine pool problem in Lake County 
will be answered by Congress. By directing the Bureau of Reclamation to 
take responsibility and action, the people of Lake County and the 
downstream Arkansas River basin water users will not have to bear a 
terrible price for the inability of federal government agencies to take 
responsibility to fix this serious problem.
    Thank you for the opportunity to speak to you today from the local 
community perspective about this very important matter. I'm happy to 
answer any questions you may have.
    [NOTE: Attachments and supplemental testimony submitted for the 
record have been retained in the Committee's official files.]
                                 ______
                                 
    Mr. Lamborn. Thank you, Mr. Commissioner, for that 
testimony.
    And I would like to now introduce the last witness on our 
panel, David Lansford, Chairman of the Eastern New Mexico Rural 
Water Authority, and also the former Mayor of Clovis, New 
Mexico. Thank you for being here, Your Honor.

  STATEMENT OF DAVID M. LANSFORD, CHAIRMAN OF THE EASTERN NEW 
  MEXICO RURAL WATER AUTHORITY, AND FORMER MAYOR, CLOVIS, NEW 
                             MEXICO

    Mr. Lansford. Thank you, Congressman Lamborn and Chairwoman 
Napolitano.
    My name is David Lansford, and I serve as the Chairman of 
the Eastern New Mexico Rural Water Authority. And I am here to 
present testimony in strong support of H.R. 5710, a bill 
sponsored by Congressman Tom Udall, which would authorize the 
Bureau of Reclamation to assist in the construction of the 
Eastern New Mexico Rural Water System, commonly referred to as 
the Ute Water Pipeline Project.
    Joining me today is my successor as Mayor of the City of 
Clovis, New Mexico, Mayor Gayla Brumfield. The City of Clovis 
serves as the physical agent for the project, and residents in 
Curry County represent over 50 percent of the population that 
will be served by the proposed Ute Water Pipeline Project.
    The authority was created in 2001 for the purposes of 
building and operating the Ute Water Pipeline Project to serve 
the communities of Clovis, Portales, Melrose, Texico, Grady, 
Elida, and throughout Curry and Roosevelt Counties.
    I would like to express my deep appreciation to Congressman 
Tom Udall for sponsoring H.R. 5710, and the entire New Mexico 
delegation for supporting our efforts to establish a 
sustainable supply of water, and preserving the socioeconomic 
future of Eastern New Mexico. The sustainable supply of water 
is critical to the future of our region, which supports a 
number of industries, including dairy, large-scale food 
production and processing, ethanol refining, a critical 
military presence, and colleges and universities, among others.
    Providing a sustainable water supply for Eastern New Mexico 
is our most significant challenge. Our communities rely solely 
on water reserves located in the Ogallala Aquifer. Over the 
last 40 years numerous studies have clearly demonstrated that 
this aquifer is being depleted, and that the Ute Water Pipeline 
Project is the most efficient, cost-effective, and dependable 
solution for these water challenges.
    Anticipating the potential water needs in Eastern New 
Mexico in the interest of maximizing New Mexico's use of water 
from the Canadian River system, the New Mexico Interstate 
Stream Commission completed construction of Ute Dam and 
Reservoir in 1962, at a present-day cost of over $140 million.
    Significant progress has been made on this project. Working 
together with the New Mexico Legislature and Gov. Bill 
Richardson, we have invested millions of dollars in the Water 
Trust Fund, which seeks to provide funding for water projects 
across New Mexico. Since 2002, the State of New Mexico has 
provided direct funding to the Eastern New Mexico Rural Water 
System Project, in excess of $12 million.
    The Authority is prepared to undertake the local financing, 
operation, and maintenance of this project. Over the years, the 
individual communities have contributed financial resources and 
in-kind resources to the project. Portales, Texico, and Melrose 
have increased water and wastewater rates in order to generate 
new revenue for the project, and the City of Clovis has enacted 
a gross receipts tax increment, and dedicated the revenue to 
the project.
    These actions are solid evidence of a high level of 
commitment from the local governments to provide a portion of 
the non-Federal funding of the project. In summary, the 
Authority is finalizing the adoption of a formal financial 
plan.
    We have been studying the efficacy of the Ute Water 
Pipeline Project for a number of years, with over 30 volumes of 
technical memorandum on the project that examines groundwater 
conditions, population growth and water demand, conservation 
and reuse, existing water systems, evaluation of alternatives, 
environmental issues, Ute Reservoir operations, water treatment 
needs, power service and wind power potential, cost estimating, 
and hydraulic optimization.
    In short, our plans for the Ute Water Pipeline Project have 
been thorough and comprehensive. Just last year, the United 
States Bureau of Reclamation commented in a letter to the 
Authority that the project is the least costly and most 
sustainable way to meet long-term water needs in the area. They 
also agree with our design consultant's preliminary design 
level of completeness, cost estimates, and that no special 
environmental issues have been identified.
    We are at a critical point in the development of the 
project, and appear before you today to urge Congress to 
expeditiously pass H.R. 5710, which would authorize the 
financing, planning, design, and construction of the Ute Water 
Pipeline Project. This pipeline project authorization meets 
much of the same criteria, and is similar to projects that were 
authorized in the Rural Water Supply Act of 2006.
    We cannot emphasize strongly enough how important this 
project is to our member entities and for the citizens and 
businesses of Eastern New Mexico. Thank you very much.
    [The prepared statement of Chairman Lansford follows:]

  Statement of David M. Lansford, Chairman, Eastern New Mexico Rural 
                     Water Authority, on H.R. 5710

    Eight cities and counties on the eastern side of New Mexico make up 
the Eastern NM Rural Water Authority (ENMRWA), including: Clovis, Curry 
County, Elida, Grady, Melrose, Portales, Roosevelt County and Texico 
(please refer to the map on the last page of this document).
    Presently, municipal and commercial water supply to the region is 
provided entirely by groundwater from the Ogallala formation of the 
High Plains Aquifer.
    Groundwater levels in the region are declining at an average rate 
of between 2.6 and 4 ft/yr and water well production is dropping at an 
alarming rate. For example, in the Clovis area, hard evidence supports 
that in 2008 it takes 53 wells to provide 9500 gallons per minute of 
production compared to 28 wells providing 10,500 gallons per minute in 
2000.
    ENMRWA members are saddled with ongoing expensive and unsustainable 
development of existing groundwater resources while actively pursuing 
conservation and wastewater reuse projects. The member communities have 
collectively incurred costs of approximately $22 million since 2000 in 
purchasing groundwater water rights, converting existing wells and 
completing new wells.
    The Eastern New Mexico Water Supply Project, Feasibility Report, 
May 1972 (rev. August 1972) by the Bureau of Reclamation stated:
    <bullet>  ``There is a definite need for the Eastern New Mexico 
Water Supply Project...''
    <bullet>  ``Although the investigations presented herein are in 
sufficient detail to establish engineering feasibility and economic 
justification of the project, additional investigations will be 
required prior to construction to insure that the final plan provides 
the most economical and desirable project in the interest of the state, 
the public, and the water users.''
    <bullet>  ``It is recommended that: 1. The Eastern New Mexico Water 
Supply Project be authorized to be constructed...''
    <bullet>  The project envisioned at the time the 1972 Feasibility 
Report was prepared was larger and more complex in size and scope than 
that currently proposed.
    The NE New Mexico Regional Water Plan (June 2006), covering five 
eastern NM counties, specifically identifies the ENMRWS as a priority 
strategy for long term sustainable water supply to the region.
    There is no viable or more cost effective alternative to the 
project as proposed. Other than the surface water from Ute Reservoir 
available to New Mexico through the three state Canadian River Compact, 
there is not a sustainable water supply available to the citizens of 
eastern New Mexico.
    A standalone brackish water supply project using aquifers located 
below the Ogallala is not viable economically nor is it sustainable. 
The only potential alternative for making the fresh groundwater supply 
sustainable is rapid, large-scale buyout and retirement of irrigated 
agriculture at massive cost and an undesirable (some say catastrophic) 
socio-economic impact.
    A sustainable supply of municipal and industrial water is critical 
to the socio-economic future of eastern New Mexico and is in the 
national interest. There is a history of federal support for similar 
regional rural projects nationally. The area supports large scale food 
production (peanuts, cheese, milk and milk products), an expanding 
ethanol industry, a regional education complex (Eastern NM University), 
extensive railway commerce, a critical military presence at Cannon AFB, 
and regional large scale wind power development.
    The City of Clovis' Comprehensive Plan (2007) identifies the 
development of a long-term sustainable water supply for the region as 
its #1 Infrastructure Goal, with five main components:
    <bullet>  Implement the ENMRWS as quickly as possible.
    <bullet>  Protect the quality of existing water supplies in Ute 
Reservoir and the Ogallala aquifer.
    <bullet>  Implement an effective water conservation program.
    <bullet>  Implement an effective wastewater reuse program.
    <bullet>  Continue to identify, evaluate and plan for new long-
range water sources.
    Stringent conservation and reuse programs, coupled with retirement 
of much agricultural pumping could prolong the present groundwater 
supply in the Ogallala, but probably for only a decade or two based on 
simulations made with several groundwater models.
    Failure to use the supply of New Mexico water available in Ute 
Reservoir for municipal and industrial purposes could lead to it being 
lost to NM users under provisions of the Canadian River Compact.
    A large body of work has been completed over the past two years by 
the ENMRWA consultant team in close coordination with Reclamation, the 
NM Environment Department, the Office of the State Engineer, the NM 
Interstate Stream Commission and member communities. Engineering work 
completed, in progress, or programmed for the near term includes:
    <bullet>  Executive Summary
    <bullet>  Planning Memoranda
      <all>  ENMRWA Member Existing Water System Facilities
      <all>  Fresh and Brackish Groundwater Resource Assessment
      <all>  Conservation and Reuse Assessment
      <all>  Member Needs for Project
      <all>  Conceptual Cost Estimating Guide
      <all>  Dynamic Simulation Hydraulic Modeling
      <all>  Treatability Testing and Water Treatment Plant 
Alternatives Evaluation
      <all>  Alternatives Evaluation Summary
      <all>  Alternative Pipeline Route Analysis
      <all>  Wind Energy Feasibility Study
      <all>  Environmental Issues
      <all>  Benefit Cost Comparison
      <all>  Reservoir Operations
      <all>  Financial Analysis
    <bullet>  Best Technical Alternative (BTA) Preliminary Engineering 
(10%) Technical Memoranda
      <all>  Raw and Finished Water Pipelines Process/Mechanical
      <all>  Raw and Finished Water Pump Stations Process/Mechanical
      <all>  Water Treatment Plant Process/Mechanical
      <all>  Structural Preliminary Engineering
      <all>  Architectural
      <all>  Civil/Site Preliminary Engineering
      <all>  Building Mechanical/Plumbing
      <all>  Electrical Preliminary Engineering
      <all>  Instrumentation and Controls
      <all>  Corrosion Protection
      <all>  Cost Opinion
    <bullet>  Best Technical Alternative Preliminary Engineering 
Drawings (10% design)
    <bullet>  Surveying and Mapping
      <all>  Survey Control Map
      <all>  Land Ownership Maps
      <all>  Utility Mapping
      <all>  Geophysical Test Sites Map
      <all>  Survey Report
      <all>  Topographic, planimetric and digital orthophoto mapping
    <bullet>  Geohazard and Geotechnical
      <all>  Geologic Hazards Report
      <all>  Schematic Level Geotechnical Investigation Report
    <bullet>  Schematic Level Design (30%)
      <all>  Pipeline Design Criteria Technical Memorandum (TM)
      <all>  Pipeline Hydraulics TM
      <all>  Draft and Final Pipeline Alignment Selection TM
      <all>  Pipelines Plan and Profile Schematic Design
      <all>  Pressure Control, Metering, and Member Interconnections
      <all>  Updated Cost Opinion
      <all>  Pipeline Standard Details
      <all>  Pipeline Master Specifications
      <all>  Pump Stations
      <all>  Water Treatment Plant
             *  Process Schematic Design TM's
             *  Engineering Disciplines Schematic Design TM's
             *  Cost Opinion
      <all>  SCADA System
    Environmental Assessment (EA) activities began in mid-2007. 
Scoping, the first step in the NEPA process, was initiated in September 
2007. Three public meetings were held in Logan, Clovis and Portales 
from September 18 through 20, 2007. The public provided feedback on the 
project and asked questions about the process. Meetings were held with 
area experts in hydrology, cultural resources, and socio-economic 
resources to elicit information. Agency meetings have been ongoing 
since September 2007. A meeting was held in Santa Fe with State 
Historic Preservation Officer (SHPO) representatives to commence early 
communication about the project. Coordination with New Mexico 
Department of Transportation, U.S. Fish and Wildlife Service, U.S. Army 
Corps of Engineers, and other agencies is ongoing. Reclamation is 
preparing to initiate contracts necessary to complete U.S. Fish and 
Wildlife Service Coordination Act requirements. A report summarizing 
scoping activities is now available on the project website.
    Three ``methods of analysis'' technical memos for hydrology, 
cultural resources, and socioeconomics have been prepared and approved 
by Reclamation. Work is continuing on the first two chapters of the EA; 
Purpose and Need (Chapter 1) and Alternatives (Chapter 2). Compilation 
of current and project water supply, demand, conservation, and 
background information, as well as a summary of required project 
permits, is included in Chapter 1. A meeting among Reclamation, NMISC, 
and ENMRWA to discuss the alternatives and options available to meet 
the purpose and need for the project was held on April 28, 2008. In 
addition, information collection for resource studies is underway. 
Detailed field studies will commence in the spring, following 
finalization of proposed infrastructure locations. At this time, a 
public review for the EA is anticipated by September 2008, and an EA/
FONSI is anticipated by February 2009.
    The consultant team has proposed and members of the ENMRWA have 
adopted a conceptual Finance Plan for the project utilizing federal, 
state and local funding. Federal funding (75%) is assumed over a 10 
year period with State contributions (15%) over six years. Local cash 
contributions (10%) will begin in FY 2009 at approximately $1,000,000 
per year with debt issuance in FY 2015 and FY 2017. Water rates will be 
phased in and adjusted up to the initial water rate that will be 
sufficient to pay all operation, maintenance, renewal and replacement, 
and debt service costs of the system. The ENMRWA will need to issue 
bonds in order to provide the local portion of the non-Federal match. 
These bonds will be issued by the ENMRWA and are expected to be fixed 
rate utility revenue bonds payable from the net revenue of the water 
supply system. The bonds will be issued in two installments to be 
amortized over 25 years at an estimated interest rate of 5.25%. The 
draft finance plan proposes an initial pre-construction (FY 2009) 
wholesale water rate of $0.19 per 1000 gallons of water reserved on the 
system. This will be followed by a construction period wholesale water 
rate of $0.28 per 1000 gallons reserved. An initial fully adjusted 
water rate of $2.05 per 1000 gallons is proposed with the system in 
operation.
    Most of the ENMRWA members have enacted one or more programs to 
begin to generate capital for the local cost share of the project such 
as water rate increases and gross receipts increments.
    The financial resources for the efforts described above have been 
provided by NM's Congressional Delegation, the State of New Mexico 
through the Water Trust Board, and ENMRWA member agencies. At the end 
of the day, all of the recent study efforts and those going back over 
the past 44 years conclude that the ENMRWS project is the most cost 
effective long range solution.
    The layout and capacity of the presently proposed Best Technical 
Alternative (BTA) water supply project has been optimized in the latest 
engineering work by design consultants to be the most hydraulically 
efficient, cost effective project possible. The latest engineering work 
validates the work of at least three previous studies done by various 
agencies and consultants--each of which recommended a project with a 
configuration and route similar to that now proposed.
    The current cost estimate is $436 million (2006$) and the project 
is expected to incur an $8 to 9 million annual operation and 
maintenance (O&M) cost. O&M will be entirely borne by the users and 
these costs are included in the projected wholesale water rates.
    To date, the State of New Mexico has provided significant 
investment in the project having authorized or appropriated 
approximately $12 million (including $4.5 million in April 2008) to 
advance the planning and design of the project and to prepare 
associated environmental investigations and documentation (NEPA). This 
does not include the major investment the State made in the 1950's and 
1960's (approximately $140 million in 2008$) to construct Ute Dam 
creating the water supply storage reservoir. Out of hundreds of 
projects submitting applications for funding through the NM Water Trust 
Board since its inception, the ENMRWS has consistently ranked in the 
very top tier of projects.
    The recent steep escalation in construction costs indicates that 
postponing the project may lead to greatly increased costs--escalation 
of construction costs is outpacing general economic inflation by 2-3% 
per year.
    Unlike many other water projects in New Mexico and the southwest, 
the proposed ENMRWS project has no known or anticipated significant 
environmental issues, no associated Native American settlement, and no 
water rights disputes. The water in Ute Reservoir is owned by the State 
and administered by the NM Interstate Stream Commission (ISC). The ISC 
and the members of the Ute Reservoir Water Commission, which includes 
the eight ENMRWA members, have a relatively straightforward water 
purchase agreement in effect.
    On behalf of the eight member entities of the ENMRWA and our 
citizens and businesses we sincerely appreciate your consideration of 
this critical project and for holding this hearing. Collectively, we 
have made major investments in this project in time, energy, resources 
and funds with the full recognition that the cost and consequences of 
inaction will be much greater down the road without it.
                                 ______
                                 

       Statement of Gayla Brumfield, Mayor of Clovis, New Mexico

    Chairwoman Napolitano and Members of the Committee, my name is 
Gayla Brumfield and I am Mayor of the City of Clovis, New Mexico. The 
City of Clovis with a population of 32,667 is a member of the Eastern 
New Mexico Rural Water Authority and serves as the fiscal agent for the 
project.
    I want to thank Congressman Tom Udall for introducing H.R. 5710, 
and the entire New Mexico delegation for supporting our efforts to meet 
eastern New Mexico's future water needs. H.R. 5710 will authorize the 
federal government to help build the Ute Water Pipeline Project 
carrying water to communities in Curry and Roosevelt counties. I cannot 
emphasize enough how important this legislation is to the future of 
Clovis and eastern New Mexico.
    The Eastern NM Rural Water System (ENMRWS) is critical to our 
ongoing efforts to strengthen and diversify our economic base in the 
region. In addition to being a state leader in agricultural production, 
Clovis and Curry County are host to a number of growing industries, 
including ethanol refining, food processing and railway commerce. We 
are proud to be the home of Cannon Air Force Base, which plays a vital 
role in protecting our nation's interests at home and abroad.
    Groundwater resources currently supply municipal water in eastern 
New Mexico, and long-term water supply availability and sustainability 
are concerns for many communities. These concerns stem from the fact 
that our groundwater source, the Ogallala aquifer, is rapidly 
approaching its limited supply of available water. The ENMRWS will 
address our future water shortage issues by providing a much-needed 
mechanism for sustainable surface water delivery to Curry and Roosevelt 
counties.
    We have been able to attract a great deal of new business to our 
area, though some companies have recently expressed concerns about the 
sustainability and availability of our water supply. It is becoming 
evident that bold steps will be required on the water issue to ensure 
our region's standing as a potential site for business relocation and 
growth. The ENMRWS is the type of bold step that is needed. While the 
cost of its construction will be considerable, its projected delivery 
of potable surface water to Curry and Roosevelt counties will 
undoubtedly provide the resources necessary for our region to remain 
economically viable and prosperous. All of the alternatives available 
to us are more expensive than the ENMRWS and are not sustainable.
    The Clovis community always unites to support programs that are 
vital to the well-being and future of the area. The Project represents 
the best alternative for providing a sustainable water supply well into 
the next century.
    After 45+ years of research, planning and design, we are now ready 
to take the next big step towards making the Project a reality. If we 
fail to act, the result could mean significant losses to our existing 
economic base and lost opportunities for future economic development.
    H.R. 5710 represents the important next step toward addressing the 
overarching issue of water in the arid West and we look forward to 
working with Congress and the United States Bureau of Reclamation to 
secure its passage.
    Thank you again for the opportunity to present our request at this 
important hearing.
    For more information contact: Scott A. Verhines, PE, ENMRWA Program 
Manager, 10010 Indian School Rd NE, Albuquerque, NM 87112, (505) 275-
0022, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="65150825000b081712044b060a08">[email&#160;protected]</a>

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 
                                 
    Ms. Napolitano. Thank you very much, Chairman Lansford. We 
will now move to the questioning. And my colleagues are not 
here; they will be in and out, apparently. They have votes in 
other committees, so they will be coming in and out.
    I would like to start off with Ms. Rudolph, since 
apparently you do have to make a flight.
    Since the Administration doesn't support this bill, are you 
concerned that both Federal agencies are now stalling to 
permanently fix this problem that is a disaster waiting to 
happen?
    Ms. Rudolph. Thank you. I am making arrangements to take a 
later flight, so I am not so critical.
    Ms. Napolitano. OK.
    Ms. Rudolph. Thank you, though. We are concerned about the 
Bureau of Reclamation in particular. We have negotiated with 
the Bureau and with EPA for some time now to try to resolve the 
impasse relative to the Operable Unit 6 for the California 
Gulch Superfund Site. And we have really not made much headway 
in trying to achieve an agreement that works for everyone here.
    Ms. Napolitano. Why?
    Ms. Rudolph. What we are told is that the Bureau of 
Reclamation doesn't believe it has the authority or the 
responsibility to take on the maintenance and repair of the 
tunnel, nor to treat the extra contaminated water that would be 
part of the Superfund Site.
    Ms. Napolitano. What about, then, if the Bureau says they 
can't, what about EPA? In fact, before I go any further, I want 
to introduce into the record a letter from U.S. EPA Region 8 
Regional Administration, Robert E. Roberts, dated November 8, 
2007, directed to Michael Ryan, Regional Director of Great 
Plains of the U.S. Bureau of Reclamation, indicating that at 
that time, they considered this to be a very critical area to 
be addressed, and waited to see how they could work out, not 
only with the EPA, but also with the State of Colorado.
    Without objection, so ordered.
    [NOTE: The letter from EPA to the Bureau of Reclamaction 
submitted for the record has been retained in the Committee's 
official files.]
    Ms. Napolitano. Mr. Quint, what say you? What is the hang-
up?
    Mr. Quint. Everyone here is aware this is a very complex 
issue out there. I know there has been a number of years and a 
number of people, and a whole lot of starts and stops on this 
issue.
    We continue to work with the State of Colorado, with Lake 
County, with EPA to try to find the best solutions here. We 
feel currently that the risk assessment that we have underway 
will give us a lot of data that can be used to try to come up 
with both short-term and long-term solutions to this problem.
    Ms. Napolitano. Ms. Sutherland, I just read off the letter 
I am introducing into the record, ``Due to the unknown 
condition of the tunnel blockages and the large volume of water 
behind the blockages, we are concerned that an uncontrolled 
potential catastrophic release of water to the Arkansas River 
from the LMDT is likely at some point.''
    This is a very alarming statement to this Committee. And I 
have entered the letter into the record.
    If EPA said the situation is potentially catastrophic, how 
can it support the Bureau's request for more time and more 
money, since they have had that?
    Ms. Sutherland. Well, we are not waiting for anybody to do 
anything. We are actually moving out. We have already installed 
a relief well in the Gaw Shaft, and we have pumped out 28 
million gallons of water already.
    Ms. Napolitano. Is that being treated?
    Ms. Sutherland. Yes, that is being treated, and treated by 
the Bureau of Reclamation's treatment plant.
    We already have evidence that that 28-million-gallon relief 
is drawing down somewhat the mine pool. It looks like it is 
also diminishing the seeps and springs that are occurring in 
the Lower California Gulf. So that is already effective. We 
started work on that in February.
    And now we are just about in the process of putting in a 
big relief well in the mine pool itself, to pump that out and 
to pipe that water also to the Bureau of Rec treatment plant. 
That should be operational this summer.
    Ms. Napolitano. But why is EPA opposing this bill? When the 
Bureau of Reclamation gives clear authority to participate in 
the solution, and chose the preferred remedy for Operable 6 
Unit?
    Ms. Sutherland. Well, the remedy that we selected, we 
selected that back in 2003. And at that time, we certainly 
thought there were certain actions that needed to be taken, 
such as a plug in the tunnel itself.
    However, we are perfectly happy to wait for the safety risk 
assessment to be done by the Bureau of Reclamation, and see if 
that requires us to make any changes in what we thought was 
necessary as a remedy for OU-6. And waiting for that safety 
risk assessment is not delaying any of the removal actions we 
are taking. We are moving out on those right away.
    So we are happy to wait to see if the safety assessment 
needs any change in our remedy.
    Ms. Napolitano. But then you would be saying that EPA can 
solve the problem entirely on your own, and do not need 
Reclamation help. Is that what I am hearing?
    Ms. Sutherland. Well, we are in negotiations right now with 
Reclamation on how we can work jointly on a long-term solution. 
We are ourselves, though, constructing the short-term solution, 
which is this relief well and pipeline to the treatment plant. 
We are doing that under our removal authority on our own.
    Ms. Napolitano. And I am assuming you are working with the 
parties that are affected from Colorado?
    Ms. Sutherland. Yes, absolutely.
    Ms. Napolitano. Am I hearing correctly?
    Ms. Sutherland. Yes, that is correct.
    Mr. Hickman. Madame Chair, I would like to make one point 
of correction. The water that is coming out of the Gaw Shaft is 
not being treated. The BOR has not received any water yet from 
the EPA from the drilling that is to be started, has not 
started yet. A pipeline has been installed.
    The speed with which the EPA and the Bureau of Reclamation 
have gotten on the short-term fix has been unbelievable, and we 
greatly appreciate that, and the citizens of Lake County 
greatly appreciate that.
    We are here to get the long-term fix. And 32 years ago we 
were here to get the long-term fix. And we need Congress to 
tell the BOR to fix the tunnel.
    Ms. Napolitano. Thank you, Mr. Hickman. Mr. Quint and Ms. 
Sutherland, it seems that there is a little bit of a difference 
of opinion, one. And two, these residents have been waiting a 
long time for the fix. And is it going to be a long-term or a 
temporary fix?
    Mr. Quint. I will try to address that. We are right now 
finishing this risk analysis, this risk assessment, to 
determine what the appropriate fixes are for this, short-term, 
as Mr. Sutherland mentioned.
    Ms. Napolitano. Do you have a draft of that you can submit 
to the Committee? I was talking to Mr. Lamborn about that, that 
you might be able to share with the Subcommittee.
    Mr. Quint. We intend to have that done by the end of June. 
So it should be done in about six weeks.
    Ms. Napolitano. By the end of----
    Mr. Quint. June, of this year. June.
    Ms. Napolitano. June. You say the report was going to be 
done in June. I am assuming you have some draft that you are 
working on.
    Mr. Quint. It is in progress right now, and it will be 
available to share with the Committee by the end of June.
    Ms. Napolitano. And may I request that if you do have a 
draft, I am certain that Mr. Lamborn and I would like to see 
that, and the rest of the Committee members might be interested 
in seeing a draft?
    Mr. Quint. Absolutely. And one of the features of this 
development of this assessment is that we had, we have set it 
up that if we find anything in the development of this report 
that is alarming or needs to be dealt with right away, that we 
are going to do that. And to date, none of those issues have 
come up.
    Ms. Napolitano. OK. Then to the question about the short-
versus-long-term fix. And of course, the other issues, whether 
or not the water is being treated and whether there is water 
being diverted that might contaminate another area. And who 
will be the PRPs?
    Mr. Quint. I am being told that the water out of the Gaw 
Shaft is not being treated, but it does not exceed the limits 
of discharge into the river. So right now that is not an issue.
    Ms. Napolitano. I beg your pardon. It is also an issue when 
there is contaminated water into rivers and other bodies of 
water.
    Mr. Quint. But it is below the limits. It is clean water.
    Ms. Napolitano. Mr. Hickman.
    Mr. Hickman. Madame Chair, the water that is going into the 
Arkansas River from the Gaw Shaft is considered to be clean 
water by standards. It is much more contaminated than the water 
that comes out of the Leadville Mine Drainage Treatment Plant, 
though. But it is considered, under Colorado rules, to be clean 
water.
    One item that I would like to bring to your attention. I am 
looking 32 years ago, the Bureau of Reclamation said that they 
would have their studies done in two months, and we are hearing 
the same thing today.
    Ms. Napolitano. Well, I don't want to--it took over 12 
years to get one report that had been paid for by some 
agencies, and I won't bring that up again.
    Yes. Before I finish, let us see. Mr. Lamborn
    Mr. Lamborn. Thank you, Madame Chairwoman. For you, Ms. 
Rudolph, and you, Mr. Hickman. Briefly describe to us what 
would happen if there were to be a catastrophic blowout, either 
to the environment or to the people who are living below that 
tunnel mouth.
    Mr. Hickman. Specifically where the plant, the treatment 
plant is in Leadville, Colorado, is right above a 300-person, 
about 80-unit trailer park. Right below the trailer park is the 
Arkansas River.
    If the portal was to blow, it would probably destroy at 
least immediately three homes, and it would immediately run 
into the Arkansas River. Depending upon how catastrophic that 
blowout would be, it could take with it the entire trailer 
park.
    Last summer, prior to our declaration of an emergency, we 
had a chance, the other two County Commissioners and myself had 
a chance to tour the plant, and to tour part of the east side. 
The things that we were noting was the saturation in the 
ground. And with a number of years' accumulation of water, it 
is continuing to grow bigger and bigger and bigger.
    If we had a glass of water sitting here and we poured water 
into it, you could see that the water would eventually seek the 
lowest point, which is what has caused possibly the Gaw Shaft, 
which is on the other side of town, to artesianing, which is 
why the EPA has put a pump on it.
    Approximately three years ago the EPA brought to the Gaw 
Shaft electricity, concrete pad, a pump; and ran out of money, 
so they quit.
    So the possibility of how dangerous it is, it is polluting 
the Arkansas River.
    Mr. Lamborn. OK. And Ms. Rudolph? And thank you for 
staying. I know that you are pushing your flight back to 
Denver.
    Ms. Rudolph. That is quite all right. I am happy to stay. 
This is important.
    I would add to that that of great concern to us is the 
actual contamination of the Arkansas River itself. We have been 
working for many years to clean up the California Gulch 
Superfund Site, and there has been a great deal of improvement 
in the river. But there continues to be a need to improve that.
    If there is a blowout in the Leadville Mine Drainage 
Tunnel, we fear that the improvements that we have made over 
the last 25 years or so in the Arkansas River would be for 
naught; and that we would end up with heavily contaminated 
metals, with metals going down the Arkansas River and 
destroying much, if not most, of the aquatic life for many 
miles downstream. And it would be a real problem, and we would 
have to basically start over again to try to clean up this 
river, which really is a national treasure
    Mr. Lamborn. Thank you both so much, and for being here as 
well.
    Mr. Quint, earlier this year Mr. Johnson of the Bureau was 
in this very room--well, down the hall--and I asked him several 
questions. I said, are you aware of the blockage in the 
Leadville Mine Drainage Tunnel in my district, and he said yes. 
And I said, does the Bureau of Reclamation have a duty to 
maintain the facilities they own. And he said yes. I said, will 
you commit to my constituents that you will work with me to 
solve this problem, and he said yes.
    How can the Bureau today be against H.R. 5511, in view of 
these yes answers?
    Mr. Quint. My answer to that is we feel this bill is 
premature. Until we get this risk assessment completed, and 
work with a lot of the people you see at this table and their 
staff to figure out the long-term solutions, this bill is 
premature
    Mr. Lamborn. Mr. Quint, all this bill does is say that the 
Bureau has the responsibility that is admittedly belonging to 
the Bureau. The Bureau owns the tunnel.
    Mr. Quint. Absolutely.
    Mr. Lamborn. Then how can you be, the Bureau be against the 
bill?
    Mr. Quint. The bill talks about, about maintaining and 
doing a lot to the tunnel that may or may not be part of the 
long-term solution of the situation out there
    Mr. Lamborn. For Ms. Rudolph or Mr. Hickman, what is your 
response to that same question? I know that you don't speak for 
the Bureau, but from your perspective.
    Ms. Rudolph. From our perspective, from Colorado's 
perspective, we are troubled by this response. Because we see 
the bill as exactly what you were just saying: it provides the 
necessary authority and direction to the Bureau to take on the 
responsibility, whatever that may be, to repair and maintain 
the tunnel. And then also to participate in that part of the 
California Gulch Superfund remedy.
    From our perspective, this would be like if you stalled 
your car on the highway, and you decided to wait and study the 
backup behind you before you agreed that it was your 
responsibility to move the car. That is kind of what we are 
hearing here, is what are the risks of there being damage or a 
blowout; we have to evaluate that before we can agree that we 
are responsible for maintenance and repair of the tunnel.
    We think this bill is necessary to establish that 
authority. The risk, the analysis of the risks may follow, but 
let us get the authority, the direction on the books now, so 
that it is clear who is ultimately responsible for whatever 
maintenance and repair is necessary
    Mr. Lamborn. And Mr. Hickman?
    Mr. Hickman. We are also troubled by the delay that the 
Bureau of Reclamation has wanted to get into the specific long-
term fix with regards to the Leadville Mine Drainage Tunnel.
    Thirty-two years ago Congress was sold on the idea that in 
two months, we would have a study done. Another risk assessment 
is not going to fix the tunnel. This particular bill 
specifically puts the Bureau of Reclamation in line to fix the 
problem, not study it
    Mr. Lamborn. Thank you all for your testimony. Mr. Hickman, 
in Leadville we have the highest incorporated city in the 
United States, if I am not mistaken?
    Mr. Hickman. That is correct, sir
    Mr. Lamborn. So all the water flows downhill from there. 
And it is not just the Arkansas River in Colorado, but a number 
of other states are affected as well. Thank you so much for 
being here today.
    Mr. Hickman. Yes, sir.
    Mr. Lamborn. And I yield back, Madame Chairwoman.
    Ms. Napolitano. Thank you, Mr. Lamborn. Mr. Udall.
    Mr. Udall. Thank you, Madame Chair. I would like to turn my 
questions to Mr. Quint, and follow up on some of the very 
important questions that my colleague, Congressman Lamborn, 
asked.
    Mr. Quint, you say the Administration supports the bill's 
goals, but it doesn't support the bill, because you aren't sure 
it is necessary to do what it requires. Well, the bill requires 
Reclamation to do three things, so let me ask you about each 
one of them in turn.
    The first is to treat water, find any blockage in the 
tunnel, including surface water diverted there as a part of the 
Superfund Cleanup Plan. Are you saying you don't know whether 
that water should be treated?
    Mr. Quint. Absolutely not. We feel that is our----
    Mr. Udall. All right. The second requirement is to manage 
and maintain the water in the tunnel to prevent surface runoff 
and minimize the chance of tunnel failure.
    Are you saying that you don't know whether you should have 
to do that?
    Mr. Quint. No.
    Mr. Udall. And the bill says that Reclamation has to repair 
and maintain the tunnel to prevent an uncontrolled release of 
water. Are you saying you don't know whether you should have to 
do that, either?
    Mr. Quint. The issue I would take with that is whether this 
is the best way to deal with that situation.
    Mr. Udall. Well, let me carry on here. If the problem with 
doing them, even if they aren't absolutely necessary, is it a 
question of cost? And if so, do you have any estimates of that 
cost?
    Mr. Quint. We do not have the estimates for that cost at 
this point in time. And that of course is always an issue as 
far as our budget.
    Mr. Udall. I would note that earlier this year there were 
some estimates that seemed to be well within hand, and easily 
appropriated, or actually available to the Bureau of 
Reclamation. Let me keep moving on.
    If your assessment showed that these things were necessary, 
would you then support the legislation?
    Mr. Quint. If the appropriate solution was, was such that 
you have written, I am not sure that the bill----
    Mr. Udall. Can you give me a yes or a no on that?
    Mr. Quint. I can give you a maybe on that, because I don't 
know the specifics of what the long-term solution will be.
    Mr. Udall. If you said it was necessary, would you support 
the legislation?
    Mr. Quint. Yes.
    Mr. Udall. Thank you. In her testimony, Ms. Rudolph says 
that Reclamation has stymied Colorado and EPA's efforts to 
implement the cleanup plan for this part of the Superfund Site, 
and is continuing to stall. What is your reaction to that?
    Mr. Quint. I believe Reclamation has been a responsible 
party here, and will continue to be in the future.
    Mr. Udall. Ms. Sutherland, does the EPA agree with--Ms. 
Rudolph. I am sorry, Ms. Rudolph on this point. It is for Ms. 
Sutherland, not for Ms. Rudolph.
    Do you agree with Ms. Rudolph on the points that I just 
outlined, that were in Ms. Rudolph's testimony?
    Ms. Sutherland. Well, I think we are working very well with 
Bureau of Reclamation now. And I think we are really in 
partnership, and trying to again get to the long-term solution, 
while EPA really focuses their removal authority on the short-
term solution.
    Mr. Udall. Could I ask, I think those are well-made points, 
but yes or no. Because she said, let me read it, she said that 
Reclamation has stymied Colorado and EPA's efforts to implement 
the cleanup plan, and is continuing to stall. Would you agree 
or disagree with that analysis?
    Ms. Sutherland. There has been no delay in our short-term 
actions caused by BOR. We have moved out very quickly, and are 
continuing to do so.
    Mr. Udall. So your answer is no.
    Ms. Sutherland. No.
    Mr. Udall. In her testimony, Ms. Rudolph says that 
Reclamation has continued to assert that it is not responsible 
for the maintenance or repair of the tunnel. Is that true, Mr. 
Quint?
    Mr. Quint. Say that again, please?
    Mr. Udall. In her testimony, Ms. Rudolph says Reclamation 
has continued to assert that it is not responsible for the 
maintenance or repair of the tunnel. Is that true?
    Mr. Quint. We are responsible for treating the wastewater 
that comes out of the tunnel. Whatever we need to do to 
maintain that tunnel to continue to be able to do that, that is 
our limits of responsibility.
    Mr. Udall. So if Reclamation isn't responsible for 
repairing and maintaining the tunnel, who is then? If not, who 
is responsible?
    Mr. Quint. I am not sure I understand the question.
    Mr. Udall. If Reclamation--yes. If you are not responsible, 
who is responsible for repairing and maintaining the tunnel?
    Mr. Quint. We own the tunnel. We are responsible for 
operating and maintaining the tunnel in order to continue to 
treat the water that comes out of the tunnel. And that is the 
main purpose of the tunnel.
    Mr. Udall. I see the yellow light is on, but so what is 
your objection to, if you own it, what is your objection to the 
bill then, which flat-out states, clarifies if you will, that 
you are responsible for repairing and maintaining the tunnel 
since you own it?
    Mr. Quint. Our objection is that this bill is premature. 
Until we get the risk assessment done, and we also have to 
reevaluate the ROD that we have in place out there for Operable 
Unit 6, there may be a different long-term solution that may 
not include the long-term stability of the tunnel.
    Mr. Udall. One comment and final question, Madame 
Chairwoman. As Congressman Lamborn aptly put it, powerfully put 
it, this has been going on for 30 years. Commissioner Hickman, 
you are aware of this. We have been hearing about studies all 
the way back to Senator Haskell's era. What steps have you 
taken, the county taken, to respond to the threat that has 
caused you to declare a state of emergency?
    Mr. Quint. The first thing we did was the location of where 
the EPA is drilling up on the east side. There was between 15 
to 25 feet of snow above the area, and if you think of a loader 
trying to move and pick up snow, and placing it 25 feet in the 
air, it took us approximately a week from the time we declared 
the state of emergency to when the EPA could start their 
process. And they started it immediately. They cleared a pad. 
They have now since partially completed the pipe going in.
    Also, with the declaration of the state of emergency, all 
local emergency services were put on notice. The Bureau of 
Reclamation, who had installed sirens at their plant, but had 
never tested them, we finally were able to test the emergency. 
We got the Fire Department out there, we got emergency 
services, FEMA, and the Red Cross has now supplied us with 
cots, emergency medical. The hospital is on alert. And everyone 
is waiting for the first drop to come out of the east side of 
Leadville.
    So the county has been instrumental in providing any and 
all support that the EPA, and/or the Bureau--I don't think we 
have done anything for the Bureau, because they are still 
waiting for the water. But maintenance of trucks, a parking 
area for EPA's trucks. So the county is cooperating any way and 
every way we possibly can in case we have an emergency, and/or 
if the contractors that are on the job need chains, welding, 
we, our road and bridge shop is well versed in what they need.
    So we are participating very well with them.
    Mr. Udall. Thank you for that summary. Madame Chairwoman, 
thank you for indulging me with a little extra time. This is 
important, and thank you for your interest and concern as well.
    Ms. Napolitano. I would be more than happy to hear one more 
question. You are fine, OK. I know you have a markup, so thank 
you very much for coming to the Subcommittee and staying with 
us.
    Ms. Herseth Sandlin.

      STATEMENT OF THE HON. STEPHANIE HERSETH SANDLIN, A 
   REPRESENTATIVE IN CONGRESS FROM THE STATE OF SOUTH DAKOTA

    Ms. Herseth Sandlin. Thank you. I want to thank you, 
Chairwoman Napolitano, for having this important hearing today 
and considering a very important bill, H.R. 155, to provide 
compensation to the Lower Brule and Crow Creek Sioux Tribes of 
South Dakota for damage to tribal land caused by the Pick-Sloan 
projects along the Missouri River. I appreciate our working 
relationship, your interest in these bills, learning more about 
the impact of the Pick-Sloan project on the tribes in question, 
what they would do with the additional monies for which 
compensation would be granted under H.R. 155.
    And thank you for inviting my good friend, Chairman Michael 
Jandreau, to testify today. I commend his testimony as well as 
the written testimony of a newly elected tribal leader for the 
Crow Creek Sioux Tribe, Brandon Sazue, who is here today, and 
has submitted written testimony for the hearing record.
    [The statement submitted for the record by Brandon Sazue 
follows:]

               Statement of The Honorable Brandon Sazue, 
                    Chairman, Crow Creek Sioux Tribe

    Thank you very much for the opportunity to submit testimony on H.R. 
155, the Lower Brule and Crow Creek Compensation Act. I am Brandon 
Sazue Chairman of the Crow Creek Sioux Tribe. It is an honor for me to 
support Chairman Mike Jandreau. Chairman Jandreau is the most senior 
Chairman in our State and in the Great Sioux Nation. I am the most 
junior Chairman in the Sioux Nation, having been sworn in just two days 
ago on May 6th.
    The legislation before you is of extraordinary importance to our 
Tribe. Crow Creek has the dubious distinction of being the poorest 
Tribe in the country, located in Buffalo County, South Dakota.
    The Crow Creek Sioux Tribe consists of 225,000 acres located in 
Central South Dakota. Our Western boundary is the Missouri River. In 
1944, when the Congress enacted the Flood Control Act and authorized 
implementation of the Missouri River Basin Pick-Sloan Plan for water 
control, two of the dams, Fort Randall and Big Bend, flooded over 
16,000 acres of our best and most productive bottomland. It was also 
the very land where a majority of our people lived. The cost to Crow 
Creek in human terms, and economically, was astronomical.
    We lost:
    <bullet>  Our hospital;
    <bullet>  Housing units;
    <bullet>  Tribal Buildings and other structures;
    <bullet>  Schools;
    <bullet>  Businesses;
    <bullet>  Roads;
    <bullet>  Acres of waterbed and timberland, and domestic and ranch 
water systems;
    <bullet>  Food sources, such as fishing, hunting, and subsistence 
farming; and
    <bullet>  Ceremonial grounds and traditional medicines.
    Our way of life was altered irreparably. Before the dams, the 
lifestyle was simple. The people worked in a community garden. In the 
evenings, the people would gather to share that day's catch of fish and 
the food gathered. They would meet to visit, pray, sing, and dance 
where the Bureau officials could not observe. The children attended 
boarding school within walking distance of their homes and family. The 
way of life, the social interactions, the camaraderie and sense of 
being one people--one Tribe, was destroyed by the environmental changes 
and forced relocation. The hospital and school were never replaced. The 
traditional medicine that grew solely in the waterbed and the 
Ceremonial Grounds are irreplaceable.
    The elders observed that this is when the change occurred. People 
started to watch each other, argue with each other, begrudge each 
other, and become disgruntled. With the loss our school, the next 
option was the Immaculate Conception Boarding School, 13 miles away. 
The students were no longer able to walk to their homes and families on 
a daily basis, and those teaching were not people who believed in the 
heritage, culture, and customs of the students. Abuses that occurred in 
Catholic Boarding Schools are well documented historically, and I will 
not expand, except to say that the loss of our school negatively 
impacted our people on a much larger scale. This impact on the social 
development of our people has rippled down through generations.
    Chairman Jandreau has spoken eloquently regarding the desire to 
join the global market and seeking economic parity with the rest of 
America. I strongly agree and support those goals. At Crow Creek we 
must first achieve parity with Chamberlain, South Dakota just twenty-
five miles away. A small town of just 2,000 people, Chamberlain's 
unemployment rate is approximately the state average--5 percent, while 
the rate at Crow Creek is over 80 percent.
    For us to move forward, we must improve our infrastructure and 
create an environment that is conducive to human and economic progress. 
The Crow Creek Sioux Tribe Infrastructure Development Trust Fund Act 
enacted in 1996 (P.L. 104-223) awarded $27.5 million to the Crow Creek 
Sioux Tribe. Of the $27.5 million, the Tribe is allowed to utilize the 
interest. The Tribal Parity Act would greatly enhance the trust fund, 
thus increasing our available monies and allowing us to leverage with 
the private sector. The first year of the trust fund, we received 
slightly over a million dollars. Due to fluctuating interest rates, the 
yield is now much less.
    We have utilized the interest to do a number of things to improve 
the situation of our people, including the following:
    <bullet>  Purchase a small school with a gymnasium in the Big Bend 
District--the furthest outlying district. We are able to provide 
Kindergarten through 6th grade education to students in that area, 
preventing the necessity of an hour-long bus ride each way to and from 
school;
    <bullet>  Construct a Community Building in the Crow Creek 
District, providing a place to gather for socializing, celebrations, 
and funerals;
    <bullet>  Construct a Community Building in the Fort Thompson 
District, utilized for community events, program presentations, wakes, 
weddings, dance, meetings, and as a polling place;
    <bullet>  Set a higher education program to assist students in 
college;
    <bullet>  Purchase land to increase the land base; and
    <bullet>  Improve damaged roads and upgrade our water plant.
    These initiatives just begin to scratch the surface. The 
legislation we are discussing today, H.R. 155, is intended to 
supplement our existing trust fund. The expanded trust fund would 
enable the Crow Creek Sioux Tribe to make significant strides in growth 
and development. Economic development and environmental improvements 
would change the lives of our people, our children, and all future 
generations of Crow Creek Sioux. It would assist in putting 
Reservations on parallel ground, enabling us to compete economically, 
with Chamberlain and the rest of the United States, as opposed to 
remaining in our current state, operating below the standards of most 
Third World Countries.
    It is important to point out, however, that while the need is very 
great this legislation is justified based upon the merits of the bill. 
When our existing trust fund was enacted it was not intended or 
considered full and final compensation. The legislation before you 
would be the full and final compensation to Crow Creek Sioux Tribe for 
the damages we have suffered by the building of the dams.
    For the men, women, and children of the Crow Creek and Lower Brule 
Sioux Tribes, there is nothing more important right now than moving 
forward with the this Act. The new Tribal Council, including myself as 
Chairman, understands the challenges that lie ahead. Our reason for 
running for office and our daily motivation is to improve the situation 
and make a positive difference for the people of the Crow Creek Sioux 
Tribe. This legislation is an essential step in our efforts to reverse 
the downward trend and move forward.
    We would appreciate our testimony being made a part of the hearing 
record. Thank you.
                                 ______
                                 
    Ms. Herseth Sandlin. Madame Chairman, I would ask you now 
to submit my opening statement for the record, and go through 
to questions.
    Ms. Napolitano. Without objection.
    [The prepared statement of Mrs. Herseth Sandlin follows:]

Statement of The Honorable Stephanie Herseth Sandlin, a Representative 
        in Congress from the State of South Dakota, on H.R. 155

    Thank you Chairwoman Napolitano and Ranking Member McMorris Rodgers 
for including H.R. 155: the Lower Brule and Crow Creek Tribal 
Compensation Act in today's Water and Power Subcommittee hearing.
    This bill would fully compensate the Lower Brule Sioux Tribe and 
the Crow Creek Sioux Tribe in South Dakota for the lands that they lost 
as a result of the federal government's construction of massive dams on 
the main stem of the Missouri River. The Lower Brule Sioux Tribe and 
the Crow Creek Sioux Tribe are both constituent bands of the Great 
Sioux Nation. Both border on the Missouri River in central South 
Dakota.
    The 1944 Flood Control Act was designed to mitigate flooding and to 
develop hydroelectric power production, among other purposes. As part 
of the Flood Control Act, the Pick-Sloan Missouri River Basin project 
was authorized. This joint venture by the U.S. Army Corps of Engineers 
and the Bureau of Reclamation led to the construction of five dams on 
the Missouri River, four of which were constructed in South Dakota.
    As part of the Pick-Sloan project, the construction of the Fort 
Randal Dam caused the flooding of 17,415 acres of Crow Creek and Lower 
Brule land. It is important to note that the federal government began 
construction of the Fort Randal dam prior to reaching a settlement with 
the tribes. In 1959, the Corps began construction of the Big Bend Dam. 
This project subsequently flooded an additional 20,478 acres of tribal 
land. In addition to the land and the natural resources that were lost, 
over one hundred native families were displaced.
    The loss of land has meant a loss of grazing and farming acreage, 
destruction of timber and wildlife habitat, and upheaval in the lives 
of the families forced from their lands to make way for the dams. 
Unquestionably, the Pick-Sloan projects exacted an enormous toll on the 
people of both tribes and their economies. It is important that we seek 
to fully reimburse these tribes for the lands they lost and recognize 
that the permanent flooding and displacement undermined the economic 
and cultural fabric of the tribe.
    Congress created a trust fund for the Crow Creek Sioux Tribe in 
1996, and a separate trust fund for the Lower Brule Sioux Tribe in 
1997. These trust funds sought to compensate the tribes for the value 
of their land that is now permanently inundated as a result of the 
construction of the Fort Randall and Big Bend Dams.
    Regrettably, the amounts of compensation between different but 
similarly situated tribes varied greatly along the Missouri River. The 
result was unfair and inadequate compensation trust funds for Lower 
Brule and Crow Creek. This act is intended to create consistency among 
the affected tribes and to bring some long-overdue closure to two 
tribes whose best lands were inundated decades ago.
    This legislation already has a history that spans multiple 
Congresses. An earlier version of this bill was reported by the Senate 
Committee on Indian Affairs in the 108th Congress and ultimately passed 
the Senate. In the 109th Congress it was amended in the Senate after 
further hearings and then reported.
    Unlike earlier versions of this bill, Section 5 of H.R. 155 states 
that ``this act shall be considered...full and final compensation...for 
damages caused by construction of the Fort Randall Dam and the Big Bend 
Dam.'' It is my hope that the 110th Congress will act on this 
legislation.
    Compensation for these tribes would mean an ability to actively 
work for the betterment of their communities. It would mean adequate 
roads and improved community facilities. It would mean better health 
care and newer schools. It would mean attracting commercial business 
and improving the local economy. Most importantly, it would mean a real 
chance for these tribes to provide future generations with the tools 
that so many of us take for granted.
    Today, this subcommittee will hear testimony from Chairman Michael 
Jandreau of the Lower Brule Sioux Tribe. Mr. Jandreau has served as 
chairman of the tribe for over 29 years. He will explain the impacts 
that the Pick-Sloan projects had on his community and why just 
compensation is necessary in order for the community to continue their 
efforts to rebuild their economy and their way of life.
    I would also like to acknowledge Mr. Brandon Sazue, the Chairman of 
the Crow Creek Sioux Tribe. Mr. Sazue was sworn in as tribal chairman 
on Tuesday of this week. I thank him for traveling to Washington, DC 
for this hearing as well as for the written testimony he provided for 
the record.
    In closing, I once again thank the Chairwoman, the Ranking Member, 
and the Members of this subcommittee for holding today's hearing. I 
appreciate your willingness to work with me to enact legislation that 
would fairly and appropriately compensate members of the Lower Brule 
and Crow Creek Sioux Tribes. I ask you to do it because of the 
tremendous positive difference it would make in the lives of those 
affected--and because it is the right and fair thing to do.
                                 ______
                                 
    Ms. Herseth Sandlin. Chairman Jandreau, thank you for 
traveling to Washington, D.C. today. I see some other members 
of the Lower Brule Sioux Tribe who have traveled here with you, 
and we appreciate your testimony, and your time, and your 
willingness to share your perspective on this invaluable 
legislation.
    I would like, if you could, to elaborate, for the 
Chairwoman and myself and Committee staff, on how the Lower 
Brule Sioux Tribe has used the compensation funds that the 
tribe has received in the past from the current trust fund; and 
perhaps provide any examples of how Lower Brule would use the 
additional compensation monies, should H.R. 155 become law.
    Mr. Jandreau. Currently we have used the infrastructure 
dollars primarily to build much-needed facilities on the 
reservation: a travel headquarters, a community center, a 
detention facility, a wildlife department, partially for the 
ambulance department and for the water department.
    Also those dollars were used because of the reduction in 
funding, for employment coming to the reservation, a portion of 
these dollars are used every year to help create employment on 
the reservation. We also use them to fund, to a great extent, 
our day-care center, our eyeglass program for the youth. We 
have used our dollars to really try to build not only hard 
facilities but human beings.
    Ms. Herseth Sandlin. And can you elaborate as well for us 
the studies that you have undertaken? The analysis as it 
relates to just compensation for this taking?
    Mr. Jandreau. We have done a number of studies in regard to 
that, which we submitted to Congress, to the Senate, some of 
which we submitted to you, that talked about the dollars, and 
the real lack of full, just compensation that had been afforded 
our tribe, and the Crow Creek Tribe. That these takings were by 
condemnation, under which there was no negotiation whatsoever.
    I also listened with a great deal of interest the 
discussions about contamination in other areas of the country, 
which this Committee is concerned with. And I find that in the 
Missouri River, which is the longest river in the United 
States, the contamination has been building consistently in 
that river. And the concern that is being reflected is not at 
the level that it is in other parts of the country. So the work 
being done is being done with cooperation of our own people, 
and we fund a lot of their activities.
    Ms. Herseth Sandlin. Thank you, Chairman Jandreau.
    Mr. Quint, I understand--I can't see you very well, but I 
understand that the Bureau of Reclamation operates the dams in 
question but isn't directly involved in questions regarding 
compensation. However, that being said, in review of your 
written testimony, I think it conveys the Administration's 
opposition to H.R. 155.
    And so you can either take these questions now, or submit 
answers in writing. But Madame Chairwoman, I would like to 
submit the following questions to Mr. Quint and the 
Administration.
    One, has the Administration conducted its own analysis of 
the various tribal compensation bills related to the Pick-Sloan 
project? And if so, what are the findings?
    Two, is the Administration's position that all impacted 
tribes have been justly compensated?
    And three, is the Administration's position that Lower 
Brule and Crow Creek Sioux Tribes have been justly compensated 
for their losses?
    Mr. Quint. We would be happy to submit the answers to those 
for the record.
    Ms. Herseth Sandlin. I appreciate that. Madame Chairwoman--
--
    Ms. Napolitano. One more question. I am willing to concede 
the time.
    Ms. Herseth Sandlin. Well, I don't have any further 
questions. Again, I appreciate you working closely with us to 
address this matter.
    The fact of the matter is the compensation amounts 
following the Pick-Sloan projects between different, but 
similarly situated, tribes vary greatly along the Missouri 
River. The result was unfair and inadequate compensation trust 
funds for the Lower Brule Sioux Tribe and the Crow Creek Sioux 
Tribe. And this Act is intended to create consistency among the 
affected tribes, and to bring some long overdue closure to two 
tribes whose best lands were inundated and taken away from them 
decades ago.
    The legislation we have introduced already has a history 
that spans multiple Congresses. And we look forward to working 
with you to advance this legislation, 110th Congress, and 
hopefully find resolution for the equitable compensation to 
these two tribes that I am honored to represent.
    Thank you, Madame Chairman. Thank you for allowing me to 
participate in today's hearing.
    Ms. Napolitano. You are very welcome. And your questions 
will be submitted for the record, and we expect them to be 
answered promptly, please. I am sorry, I have to do that, 
because if I don't, I end up having to wait, and I don't like 
to wait that long.
    Talking in regard to 155, Chairman Jandreau, the current 
trust funds for the economic development, what has been done 
with them? And apparently the tribe's analysis was different 
from the GAO reports, not using the tribe's final asking prices 
as the starting point of the analysis, and second not providing 
a range of additional compensation.
    Mr. Jandreau. I guess I don't truly understand, except to 
say that our consultant's starting point that the tribes 
determined over time to be fair market value for the damage, 
and the historical evidence, shows that the tribe's final 
asking prices were offered on the conditions of extreme duress. 
And it was a take-it-or-leave-it situation.
    In response to GAO's criticism, our consultant calculated 
four alternative ranges of additional compensation. These 
alternatives ranged from $20.6 million to $432.5 million for 
Lower Brule, and from $11.5 million to $93.8 million for Crow 
Creek.
    And also because of the criticism received, Section 5 of 
the bill tells that we would consider this final compensation 
for Crow Creek and Lower Brule, as far as the claim for the 
Missouri River.
    Ms. Napolitano. There are five other tribes that apparently 
have received compensation, and they have not come back for a 
third request. Do you feel it has been unfair to you?
    Mr. Jandreau. Yes, I do feel it has been unfair. You know--
--
    Ms. Napolitano. In what way, sir?
    Mr. Jandreau. If additional compensation is not provided 
for Lower Brule and Crow Creek, then equitable settlement will 
not have been achieved. And these tribes have received most 
equitable treatment.
    Ms. Napolitano. You mean the other five tribes?
    Mr. Jandreau. No, these two tribes, Lower Brule and Crow 
Creek, than Cheyenne River, two affiliated, Santee Oryenta, 
because of the variance and the costs that were afforded these 
four tribes, versus Lower Brule and Crow Creek.
    Ms. Napolitano. OK, sir. Because I have a summary of what 
each tribe in that area had been, the acreage lost, the 
payments, et cetera. And I haven't done the math, but I am 
going to be looking at it a little more closely to see what the 
percentages were.
    Ms. Herseth Sandlin indicated it was some of your best 
land.
    Mr. Jandreau. Yes, it was.
    Ms. Napolitano. Have you used a lot of your trust funds for 
economic development?
    Mr. Jandreau. Yes, we do, to the degree that we can. Our 
present trust fund is used primarily for survival income, 
ma'am. We don't have a huge casino. Our casino is very small. 
And the population served by it is very small. Consequently, 
the returns are very small in comparison to other casinos 
throughout the country.
    Our land base is used primarily by our members and by our 
agricultural activities. Our efforts are to create self-
efficiency based on the assets that we have. One of the assets, 
of course, we have expanded into value-added agricultural 
production, and we have started another business for that 
purpose.
    Crow Creek likely is the same way, where they use their 
land base to the greatest extent possible to generate income 
for the people.
    However, the dollars that we receive are not anything but 
the interest that we receive, all from the trust funds. And as 
you know, the interest rates on government paper has been very, 
very low. And that is what we are subjected to. We based our 
return and our capacity on a 6 percent interest rate. We have 
found our interest rate to be at .08 of 1 percent for 
overnighters, up to 3.8 on bills that we were able to purchase 
through the process that we have to utilize. Our income over 
the last two years has been 4.8 percent of our trust fund.
    Ms. Napolitano. Chairman, would you be so kind as to put 
that in writing, so we can introduce it into the record? I 
would like to see it further, if you wouldn't mind.
    Mr. Jandreau. Yes, I would.
    Ms. Napolitano. Thank you. I will move on to the next one, 
because we have to keep moving.
    But to Mr. Lansford, let us see. I am losing my place here. 
Mr. Lansford, Chairman Lansford, what are the eight cities and 
counties involved in the Ute Pipeline Project doing to prepare 
financially for this project?
    Mr. Lansford. Madame Chairwoman, that is a good question. 
We have, for the last several years, looked at various 
financing plans. And currently we are in the process now of 
finalizing the adoption of a finance plan which involves 
several communities increasing their wastewater rates, or their 
water rates. And the City of Clovis, being the largest member 
of the Authority, actually has implemented a gross receipts 
tax, which a portion of that has been dedicated as a revenue 
stream to service a debt on the local share.
    Ms. Napolitano. And in all of the authorities' research and 
consultations, what kind of evidence have you collected 
relating to the decline of the aquifer?
    Mr. Lansford. Well, most recently and most troubling has 
been some data that has been accumulated by the City of 
Portales and the private water company that is associated with 
the City of Clovis.
    And to summarize that would be to say that in the last 
eight years, the water provider for Clovis, New Mexico has 
doubled the number of wells in production. Yet the amount of 
water being produced is about 5 percent to 10 percent less than 
it was eight years ago, with again twice as many wells 
producing.
    Ms. Napolitano. Are your wells declining, then?
    Mr. Lansford. Very dramatically. And of course, the Energy 
Bill is kind of a mixed blessing for us. We are an 
agricultural-based community, and there are corn growers in the 
area, and sorghum producers, and feed producers for dairies. 
And of course, they run their wells very, very often and very 
long. So the demand for water has increased in the area as 
well.
    Ms. Napolitano. My concern while sitting in this 
Subcommittee is that we continue to look for and try to help 
out wherever we can to assure the water delivery, clean water 
delivery, and clean up the contaminated aquifers. That is why I 
continue to bring that up.
    We may be needing every single drop from every well and 
from every river and from every resource that we can, every 
source. So that is why I would like to have any information 
that you have submitted for the record, so that we may be able 
to take that into consideration also.
    Mr. Quint and Mr. Lansford, Cannon Air Force Base will be 
the major recipient of this rural water project, apparently. 
Yet there is no cross-share for the military as there have been 
in other bills, such as Camp Pendleton, their license water 
bill. And how is the Air Force going to pay for the water? Or 
are they going to be paid for the water? Or are they going to 
made to pay for the water?
    Mr. Quint. I do not have that information in front of me 
now. I will look into that and get back to you for the record.
    Ms. Napolitano. I would really appreciate it, because if it 
is free water, I take objection to that.
    Mr. Quint. I understand.
    Ms. Napolitano. I think everybody has been made to pick 
water; as these people have indicated, it is not easy and it is 
not cheap.
    Mr. Lansford.
    [Pause.]
    Ms. Napolitano. I am all right. I had a shot for pneumonia, 
and it is giving me fits. My left arm is bugging me, so you 
will have to forgive me, please. Yes, Mr. Lansford.
    Mr. Lansford. Madame Chairwoman, that is a very good 
question, and I will assure you that the Department of Defense 
will not get free water from this project.
    Currently the Cannon Air Force Base facility is not a 
member of the Water Authority, but they do have water reserved 
through the City of Clovis. There is a memorandum of 
understanding that has been in place for a number of years 
whereby they would actually purchase the water from the Water 
Authority through an agreement with the City of Clovis. And so 
ultimately, when water is delivered, they would become a 
customer of the Water Authority, and would pay market price for 
the water.
    Ms. Napolitano. So they are, they are going to be paying 
for that water.
    Mr. Lansford. Yes, ma'am.
    Ms. Napolitano. OK. To Mr. Hickman, what effect has all the 
publicity over this environmental threat had on the citizens of 
Lake County and your economy?
    Mr. Hickman. It has had, at the very initial start it had a 
dramatic impact in that we had cancellation of reservations. We 
have had restaurants, sales down.
    Since that time, we have done our own publicity saying that 
the drinking water is fine, please come to Leadville. We 
believe that the two Federal agencies are working as hard as 
they possibly can to solve the short-term problem.
    Since that time, we also had some real estate sales that 
were not consummated. Since that time, we are now approximately 
three months down the road, and those real estate transactions 
have happened. Our sales tax is actually up from what it was 
before. We, our immediate disaster declaration was picked up by 
the press, and picked up hard by the press. But it has brought 
us to this table today, and I would do it again.
    But I think Leadville and its economy is back on line, and 
we hope that--our tourist season is actually the summer. And we 
can point to a particular area on the east side and say this is 
what the EPA is doing right now to solve our short-term 
problem.
    Ms. Napolitano. Thank you. Have you had any contact, been 
contacted by or been involved in what impact it might have on 
your fishing industry, if you have fishing? Or on the wildlife, 
on estuaries, if there are any? What impact? Because it says 
the runoff is not bad. But certainly some of these animals are 
susceptible, and that could cause a problem for some of the 
economy you might be banking on.
    Mr. Hickman. I think if we had the environmental 
catastrophe that has been outlined in the EPA's letter, that we 
would not have a fishery, period. And it would have a dramatic 
impact upon our community. It not only would have an impact on 
our community; it would be all the way down to Pueblo, Colorado 
Springs, and other places that use that water not only for 
drinking, but for recreation.
    So it immediately--whitewater rafting has become extremely 
big in Lake County and Chaffee County. Would you want to 
whitewater raft in polluted water? This coming from Leadville. 
And the answer is absolutely, positively not.
    So we are real concerned that if we have this environmental 
catastrophe that the EPA has outlined, that our economic 
development, our tourism would be devastated.
    Ms. Napolitano. Then the effect on fish and wildlife, 
though.
    Mr. Hickman. Absolutely, absolutely. I think Ms. Rudolph 
referred to a blowout of the Yak treatment plant, which is just 
above the Gaw Shaft, about 1982. And it affected the fisheries 
all the way down to Canyon City. The water was basically turned 
gold, and we lost our fishery. We do not want to see that 
happen again.
    Ms. Napolitano. Thank you. And I will move that that map, 
probably in a smaller, condensed form, be accepted into the 
record. It is a little big.
    And thank you, all the witnesses. This concludes the 
Subcommittee's hearing on H.R. 155--I apologize for the 
lateness--the Lower Brule and Crow Creek Tribal Compensation 
Act by Ms. Herseth Sandlin. H.R. 5511, the Leadville Mine 
Drainage Tunnel Remediation Act of 2008 by Mr. Lamborn. And 
H.R. 5710, the Eastern New Mexico Rural Water System 
Authorization by Mr. Tom Udall.
    Our thanks to all of you again for appearing before the 
Subcommittee, and for being so honest and candid. And I hope to 
see that draft, how would I say, forthwith?
    Mr. Quint. We are working really, really hard on that.
    Ms. Napolitano. Thank you, Mr. Quint. Your testimonies and 
expertise have been very enlightening and very helpful. And we 
will, of course, include it in the record.
    Under Committee Rule 4[h], additional material for the 
record should be submitted within 10 business days after this 
hearing. The cooperation of all the witnesses in replying 
promptly to the questions submitted to you in writing will be 
greatly appreciated. And I was informed by Mr. Lamborn's staff 
that there will be questions submitted for the record.
    This hearing is now adjourned. And again, thank you.
    [Whereupon, at 1:26 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
